REVIEW OF AIR CARRIERS’ USE
OF AIRCRAFT REPAIR STATIONS
    Federal Aviation Administration

     Report Number: AV-2003-047

       Date Issued: July 8, 2003
           U.S. Department of
                                                                      Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Review of Air Carriers’ Use of Aircraft                                       Date:     July 8, 2003
           Repair Stations
           Report No. AV-2003-047
  From:    Alexis M. Stefani                                                                  Reply to
                                                                                              Attn. of:    JA-10
           Principal Assistant Inspector General
             for Auditing and Evaluation
    To:    Federal Aviation Administrator


           This report presents the results of our review of Air Carriers’ Use of Aircraft
           Repair Stations. An executive summary of the report follows this memorandum.

           The objectives of this audit were to determine if the Federal Aviation
           Administration (FAA): (1) ensures that maintenance work at FAA-approved
           repair stations is performed by trained, qualified personnel and complies with
           approved maintenance procedures; (2) verifies that foreign civil aviation
           authorities conducting inspections on FAA’s behalf ensure that aircraft are
           adequately safeguarded, repairs are completed properly, and any identified
           deficiencies are corrected; and (3) monitors changes in air carriers’ maintenance
           expenses and repair station usage to identify notable trends and effectively target
           FAA’s surveillance resources.1

           The purpose of this report is to focus on FAA’s safety oversight of current
           requirements for domestic and foreign repair station operations and identify where
           improvements are needed. We recognize that some differences exist between
           foreign and domestic repair station requirements. For example, FAA certification
           of domestic repair stations lasts indefinitely, whereas foreign repair stations must
           be recertified every 1 to 2 years. However, we did not evaluate, nor are we taking
           issue with, the differences in the rules currently governing the operation of
           domestic and foreign repair stations.

           In reviewing FAA’s oversight of repair stations, our audit evaluated whether the
           facilities we visited were complying with existing FAA standards which apply
           1
               In February 2003, we issued a report to the Transportation Security Administration (TSA) covering our fourth
                objective, which was to ensure that repair stations have controls in place to provide adequate security of aircraft and
                repair facilities. Because the report contained sensitive security information, it may not be released without the
                written permission of TSA.
                                                                                  2

under current law. The type and extent of problems we found at domestic and
foreign repair stations were similar. The vulnerabilities all relate to a lack of
effective FAA oversight that needs to be improved in order to further strengthen
safety.

Air carriers have used repair stations for many years both because repair stations
can complete repairs for less cost and because repair stations can provide
specialized expertise in areas, such as engine repairs, that would otherwise require
air carriers to have specialized equipment and staff. The use of repair stations is
becoming an integral and fundamental part of air carriers’ operations, with major
air carriers now using outsourced facilities for up to 47 percent of their
maintenance costs. Although FAA has placed significant emphasis on improving
its oversight of air carriers’ in-house maintenance programs, FAA has not placed a
similar focus on its oversight of aircraft repair stations. As air carriers take
aggressive steps to reduce operating costs, it is clear the trend toward increased
use of repair stations is likely to continue. Our report contains recommendations
for specific actions FAA needs to take to enhance its oversight of aircraft
maintenance work performed at these facilities.

On June 19, 2003, FAA provided written comments (attached as an Appendix to
this report) to our May 30, 2003 draft report. We subsequently met with FAA
senior management on July 2, 2003, to further discuss the report and FAA’s
response. FAA concurred with our recommendations and agreed to:

• develop a new process to identify repair stations air carriers use to perform
  safety critical repairs and target inspector resources based on risk assessments
  or analysis of data collected on air carriers’ outsourcing practices;

• form a workgroup to evaluate various measurements available to identify
  trends in the source of maintenance and select the proper metrics. The
  workgroup will complete its work within 6 months, and FAA will develop
  policies and procedures to use these measures to identify trends and make
  changes in inspector resources as warranted. In the meantime, FAA will
  identify where critical repair work is performed and consider any available
  financial data to determine if there is a trend toward outsourcing such work;

• develop procedures to improve information sharing through the Safety
  Performance Analysis System by requiring certificate management inspectors
  to document the name of the repair station they have reviewed and revising the
  guidance for district office inspectors to more thoroughly document repair
  station inspections;

• clarify its policies to develop a comprehensive, standardized approach to repair
  station surveillance, including the review of total repair station operations;
                                                                                  3

• conduct follow-up reviews with the three foreign aviation authorities to ensure
  they are complying with recently issued policy pertaining to inspection
  documentation requirements, and instruct Field Office Managers with
  responsibility for these agreements to ensure that documentation is in English
  and addresses the elements of repair station inspections;

• develop a process to capture results of FAA and foreign aviation authority
  inspections for repair stations monitored by other aviation authorities;

• develop a procedure to verify that foreign aviation authorities place adequate
  emphasis on FAA regulations when conducting inspections at FAA-certified
  facilities;

• clarify requirements for foreign aviation authorities to send changes to
  FAA-certified repair station operations to FAA for approval; and

• clarify that the current sample size for conducting sample inspections
  (10 percent of the repair stations) is the minimum adequate number needed to
  gain assurance that foreign aviation authorities’ inspections meet FAA
  standards. The fact that FAA is clarifying its policy on the number of sample
  inspections it can perform at foreign repair stations is a step in the right
  direction, particularly given that FAA inspectors stated the 10 percent sample
  inspection limit was too restrictive.

FAA’s response is constructive and the actions the agency commits to will
significantly improve safety oversight of both domestic and foreign repair stations.
When implemented, a new process to target inspections based on risk assessments
or analysis of air carrier outsourcing practices should notably enhance the level of
FAA’s oversight. Likewise, the planned actions to develop new procedures and
clarify requirements for inspections of FAA-certified repair stations conducted by
foreign aviation authorities is an important action that will strengthen FAA’s
ability to effectively monitor the quality of foreign authorities’ oversight.

A complete description of our recommendations, FAA’s comments, and our
responses are discussed in detail in Agency Comments and Office of Inspector
General Response on pages 31 through 34 of this report.

In accordance with the requirements of Department of Transportation
Order 8000.1C, we request that you provide target dates for completing planned
actions within 30 days. We appreciate the courtesies and cooperation of Federal
Aviation Administration representatives during this audit. If you have any
questions concerning this report, please call me at (202) 366-1992 or David A.
Dobbs, Assistant Inspector General for Aviation Audits, at (202) 366-0500.

Attachment

                                         #
                            Executive Summary
          Review of Air Carriers’ Use of Aircraft Repair Stations
                        Federal Aviation Administration

Report No. AV-2003-047                                                                         July 8, 2003

BACKGROUND AND OBJECTIVES
   Currently, there are approximately 650 foreign and 4,600 domestic repair stations
   certified by the Federal Aviation Administration (FAA). Repairs by FAA-
   certified repair stations are highly regarded throughout the world. To obtain FAA
   certification, repair stations must demonstrate that they have equipment,
   personnel, manufacturers’ maintenance instructions, and inspection systems to
   ensure repairs will be completed using FAA standards.

   According to FAA, oversight of these facilities is performed by 1,742 FAA
   aviation safety inspectors located throughout the United States, Europe and Asia.
   Repair stations are also monitored by air carrier groups and international aviation
   authorities. As illustrated in Figure 1, these groups, along with FAA, create a
   series of overlapping controls designed to ensure repairs are completed properly.

                       Figure 1. Oversight of FAA-Certified Repair Stations

                                                           FAA
                                                     Flight Standards
                                                      District Office
                                                        Inspectors
                                                          (3,041 )                  FAA
                                 FAA                                             Certificate
                             International                                      Management
                             Field Office                                          Office
                              Inspectors                                         Inspectors
                                 (105)         FAA Certified                       (153)

                                               Repair Stations
                                          Civil
                                        Aviation                        Air Carrier
                                       Authorities                       Auditors
                                       Inspectors




   When repair stations are certified by more than one country, aviation authorities
   from each country conduct oversight of those facilities. Repair stations are billed
   for the cost of this oversight by each authority. To reduce the financial burden on
   repair stations and to eliminate duplicative surveillance activities, FAA and the
  European Joint Aviation Authorities1 developed Bilateral Aviation Safety
  Agreements and accompanying Maintenance Implementation Procedures. A
  Bilateral Aviation Safety Agreement is a government-to-government agreement
  that lays out a framework for the aviation authorities to cooperate on aviation
  safety issues. Maintenance Implementation Procedures define the terms and
  conditions under which the authorities accept each other’s maintenance facility
  inspections, thereby reducing redundant regulatory oversight.

  Currently, 138 FAA-certified repair stations are being monitored by the French,
  German, and Irish aviation authorities. FAA inspectors continue to provide
  oversight for the remaining 512 FAA-certified repair stations located in foreign
  countries.

  The objectives of this audit were to determine if FAA: (1) ensures that repair
  stations have controls in place to provide adequate security of aircraft and repair
  facilities; (2) verifies that foreign civil aviation authorities conducting inspections
  on FAA’s behalf ensure that aircraft are adequately safeguarded, repairs are
  completed properly, and any identified deficiencies are corrected; (3) monitors
  changes in air carriers’ maintenance expenses and repair station usage to identify
  notable trends and effectively target FAA’s surveillance resources; and (4) ensures
  that maintenance work at FAA-approved repair stations is performed by trained,
  qualified personnel and complies with approved maintenance procedures.

  This report does not address security at aircraft repair stations. Because of the
  sensitive nature of the information, issues pertaining to security at repair stations
  were addressed in a separate document.


RESULTS IN BRIEF
  The use of repair stations to complete aircraft maintenance is becoming as
  fundamental to air carriers’ maintenance programs as their own internal
  maintenance facilities. Although air carriers have outsourced portions of their
  maintenance work for years, this practice has recently become more pronounced.
  As of December 2002, major air carriers2 were using repair stations for 47 percent
  of their total aircraft maintenance costs. While major air carriers spent $1.5 billion
  on outsourced maintenance work in 1996, the amount spent on outsourced
  maintenance had increased to $2.5 billion in 2002. This trend has been largely
  driven by the substantial cost savings that can be realized from using repair

  1
      The European Joint Aviation Authorities represent 37 European countries that have agreed to cooperate in
      developing and implementing common safety regulatory procedures.
  2
      Major air carriers are those that transport the most passengers: Alaska Airlines, America West Airlines, American
      Airlines, Continental Airlines, Delta Air Lines, Northwest Airlines, Southwest Airlines, United Airlines, and
      US Airways.


  Executi ve Summar y                                                                                               ii
stations. Air carriers can save as much as 30 to 40 percent by outsourcing aircraft
maintenance because labor rates are lower at repair stations. Also, air carriers do
not have to maintain the capabilities to perform specialized repairs at their in-
house facilities if the work is outsourced. While some air carriers are currently
achieving significant cost reductions through workforce wage concessions, it is
unclear whether the savings will be enough to reverse the current trend toward
outsourcing.

Despite the increase in air carriers’ use of these facilities, FAA has continued to
concentrate its resources on oversight of air carriers’ in-house maintenance
operations. For example, inspectors at one air carrier completed 400 inspections
of the air carrier’s in-house maintenance operations in fiscal year (FY) 2002, while
only completing 7 outsourced maintenance inspections of repair stations used by
the air carrier during the same time period. During this same year, this air carrier
outsourced 44 percent of its maintenance cost.

FAA Needs to Reevaluate Its Oversight Structure for Repair Stations. Two
different groups of FAA inspectors monitor repair station operations; however,
neither group inspects repair stations on a regular basis, nor do the inspections
cover the entire repair station operation. Within FAA’s Flight Standards Service,
the inspector workforce is divided into two distinct groups. First, Flight Standards
District Office inspectors are responsible for monitoring the safety of various
types of aviation operators located in their assigned geographical area or district.
The second group, Certificate Management Office inspectors, is assigned the
responsibility of monitoring the operations and maintenance activities of major air
carriers.

Inspectors located in FAA’s Flight Standards District Offices (district office
inspectors) have primary responsibility for oversight of repair station operations;
however, they are only required to visit each facility once per year. Also, these
district office inspectors have responsibility for oversight of numerous other
operators that fall within their geographical area of responsibility. District office
inspectors in the 9 offices we reviewed were responsible for oversight of an
average of 9 repair stations and 14 other certificates. However, we did find
instances in which district office inspectors were assigned oversight responsibility
for many more certificates. For example, 1 FAA inspector was assigned oversight
responsibility for 21 repair stations, 21 agricultural operations, 12 service-for-hire
operators, 3 general aviation operators, 2 helicopter operations, and 1 maintenance
school. As a result, district office inspectors may limit their surveillance time at
repair stations and do not monitor all phases of repair station operations during
their inspections.




Executi ve Summar y                                                                iii
As part of their oversight of major air carrier operations, Certificate Management
Office (certificate management) inspectors also conduct periodic inspections of
repair stations. However, the inspections are infrequent and are primarily
designed to assess whether the repair station is following the air carrier’s
maintenance manual to complete repairs. For example, certificate management
inspectors would not review work the repair station performs for other air carriers,
nor would they review a repair station’s overall operation.

Compounding the weaknesses in FAA’s oversight structure is the fact that district
office and certificate management inspectors do not share the limited repair station
inspection information they have obtained. A primary tool designed to permit
such information sharing is FAA’s Safety Performance Analysis System (SPAS).
While SPAS could provide FAA inspectors in any office with access to safety data
that can be used to target inspections to areas of the greatest need, the two groups
of inspectors do not provide sufficient repair station inspection information in the
system to make it useful. For example, certificate management inspectors are not
required to record which repair stations they inspect, and district office inspectors
do not identify what they did to complete their inspections. FAA needs to
implement better methods of sharing data between certificate management and
district office inspectors regarding repair station inspections and findings.

Greater Emphasis Needed on Repair Station Oversight. In the past few years,
FAA has given much-needed attention to its oversight of air carriers’ in-house
maintenance. For example, in December 2001, we reported that independent FAA
inspection teams identified aircraft maintenance deficiencies such as fuel leaks
under the wings and engine oil and hydraulic leaks on landing gear. These
maintenance problems indicated that the carriers’ systems for monitoring their
own maintenance work, and work performed by repair stations, were not
functioning properly; however, FAA inspectors responsible for oversight of these
air carriers had not identified the shortcomings in how the carriers monitored their
maintenance work. As a result, FAA has taken steps to improve its oversight of
air carrier operations and air carrier maintenance programs, referred to as
Continuing Analysis and Surveillance Systems.

Similar emphasis is also needed on the process and level of oversight inspectors
apply at aircraft repair stations. When we visited 12 domestic and 9 foreign repair
stations, we identified problems such as mechanics using incorrect aircraft parts
and outdated maintenance manuals during repairs, and performing improper
calibrations of tools and equipment at 18 of the 21 (86 percent) repair stations
reviewed. We found these discrepancies by reviewing the parts, repair manuals,
tools, and equipment used to complete selected repairs—a process which allowed
us to evaluate the entire repair process from the time the parts were received for
repair until they were released to the customer. However, FAA inspectors tend to


Executi ve Summar y                                                               iv
only look at segments of the repair process because of the limited time they have
to devote to repair station inspections. To correct the kind of weaknesses we
found, FAA must develop a more comprehensive approach to repair station
inspections that includes a review of all aspects of repair station operations. FAA
has acknowledged the need to consider additional methods of repair station
oversight. FAA senior management officials recently advised us that the Agency
is working on a risk management approach to oversight of repair stations.

FAA Should More Closely Monitor Foreign Aviation Authority Oversight of
Repair Stations. Although widely used by U.S. air carriers, some FAA-certified
foreign repair stations are not inspected by FAA inspectors at all because other
civil aviation authorities review these facilities on FAA’s behalf. FAA permits
foreign authorities to inspect FAA-certified repair stations to prevent duplicative
inspections and reduce the financial burden on foreign repair stations. Therefore,
this arrangement has positive features that make continuation of the program
beneficial to all parties. However, FAA has not implemented adequate oversight
procedures for ensuring the quality of inspections conducted on its behalf.

Foreign inspectors do not provide FAA with sufficient information to determine
what was inspected, what problems were found, and how they were corrected. In
14 of 16 (88 percent) files we reviewed, the inspection documentation provided to
FAA was incomplete or incomprehensible. For example, although it should be
submitted in English, inspection documentation provided by one country was
submitted to FAA in French. Yet, the one FAA inspector who was fluent in French
was only assigned 3 of the 10 facilities for which inspection documentation was
submitted in French. As a result of the weaknesses in inspection documentation,
FAA could not verify that inspections conducted on its behalf ensured repair
stations met FAA standards.

As part of FAA’s agreement with foreign authorities performing oversight on its
behalf, FAA inspectors can perform “sample inspections” of up to 10 percent of
facilities already reviewed by foreign inspectors. When FAA performed a sample
inspection of a repair station that had been inspected by a foreign aviation
authority, FAA inspectors found 45 deficiencies, many of which directly related to
FAA requirements. These deficiencies ranged from failure to properly calibrate
tools to subcontracting out portions of the work to facilities that were not
FAA-certified repair stations. We found that foreign inspectors often focused
more on European regulations than FAA requirements during their reviews.
Representatives from one foreign authority advised us that they did not feel it was
necessary to review FAA-specific requirements when conducting repair station
inspections. To ensure FAA-certified repair stations are following FAA standards,
FAA should consider performing more sample inspections of facilities inspected



Executi ve Summar y                                                              v
  by foreign authorities to ensure that these repair stations are following FAA
  standards.

  Conclusion. The type and extent of problems we found at domestic and foreign
  repair stations were similar. These vulnerabilities all relate to a lack of effective
  FAA oversight and, if not corrected, could lead to an erosion of safety. FAA must
  take action to obtain data to determine trends in air carriers’ use of repair stations,
  determine which repair stations the carriers are using to perform maintenance,
  adjust its surveillance so that it performs more frequent and detailed reviews of the
  facilities air carriers use the most, and develop a documented system to share
  inspection information between FAA offices. Additionally, FAA must clarify its
  inspection documentation requirements and take steps to ensure inspections
  conducted by foreign authorities verify that FAA standards are followed. If FAA
  cannot take these actions to enhance its oversight of repair stations, more
  fundamental changes in FAA’s structure may be necessary.


PRINCIPAL FINDINGS

  Air Carriers Have Increasingly Gravitated to Repair Stations for
  Aircraft Maintenance, Yet FAA Has Made No Similar Shift in Its
  Oversight of These Facilities
  Even though air carriers are currently outsourcing close to half of their
  maintenance expense, FAA has continued to focus its surveillance on air carriers’
  in-house facilities with no comparable shift toward increased oversight of work
  performed at repair stations. While aircraft repair stations have long been used to
  supplement air carriers’ in-house maintenance work, major air carriers have gone
  from outsourcing just over a third of their maintenance expense to outsourcing
  nearly half of their aircraft maintenance costs,3 as shown in Figure 2.




  3
      To determine outsourced maintenance percentages, we compared the amount of direct maintenance expense air
      carriers incurred for outside repairs to the amount the carriers incurred for total direct maintenance expense as shown
      on “Form 41” financial data that air carriers submit to the Department’s Bureau of Transportation Statistics.


  Executi ve Summar y                                                                                                    vi
                        Figure 2. Percentage of Maintenance Outsourcing
                                 for Major Air Carriers from 1996 to 2002
                                                                                   Outsou rcing Cost
                       $7.0                                                        Total Cost

                       $6.0

                       $5.0

                       $4.0
          Billions




                                                                           47 %    47 %
                                                         45 %      44 %
                       $3.0
                                       38 %      41 %
                               37 %
                       $2.0

                       $1.0

                       $0.0
                                1996      1997    1998    1999      2000    2001     2002
                                                          Ye ars
                     Source: U.S. DOT Form 41


As shown in Figure 2, major air carriers spent almost a billion dollars more on
outsourced maintenance in 2002 than in 1996. Because of the financial benefits,
some air carriers have customarily placed heavy reliance on outsourcing
maintenance work to keep operating costs down. For example, four major air
carriers (America West, Continental, Alaska, and Southwest) have consistently
outsourced at least 63 percent of their maintenance costs to repair stations in the
last 5 years. However, with the sharp economic downturn in the aviation industry,
even those carriers that did not traditionally rely on extensive outsourcing are re-
evaluating this decision. For example, Delta Air Lines outsourced 19 percent of
its maintenance expense in 1996; however, Delta doubled the percentage it
outsourced to 38 percent in 2002. Similar shifts towards outsourcing for Delta and
two other air carriers not typically known to extensively outsource maintenance
work are shown in Figure 3.




Executi ve Summar y                                                                                    vii
                     Figure 3. Growth in Outsourced Maintenance in 1996 and 2002
                                     for Three Major Air Carriers

             $1,000,000,000                                                 33%
                                                38%
               $900,000,000
                                                                      19%
                                                                                            31%      44%
               $800,000,000

               $700,000,000
                                         19%
               $600,000,000

               $500,000,000

               $400,000,000

               $300,000,000

               $200,000,000

               $100,000,000

                           $0
                                 CY 1996 CY 2002              CY 1996 CY 2002            CY 1996 CY 2002
                                           Delta                         United              Northwest
                                                            Airline/Calendar Year

           Source: US DOT Form 41 data         In-house Maintenance         Outsourced Maintenance



Recently, many airlines have reduced their workforce, closed maintenance
facilities, and retired aircraft to reduce operating costs. Some airlines have used
the bankruptcy process to restructure their costs and renegotiate labor contracts.
At least one major air carrier has announced plans to abrogate its current union
contract, which restricts the amount of maintenance work that can be outsourced,
in order to outsource more. This carrier has already closed two of its maintenance
facilities and reports that sending more of its aircraft maintenance to repair stations
will save 50 percent of the amount it spends on major aircraft repairs.

The financial benefits air carriers realize as a result of maintenance outsourcing is
attributed to different factors. First, air carriers can negotiate lower labor rates at
outsourced facilities because repair stations often have lower overhead and pay
lower wages to their mechanics. While details of labor rates are closely guarded
by air carriers, in-house labor rates to complete airframe work have been reported
to be as high as $83 per hour, while labor rates for the same repair at a repair
station range from $45 to $47 per hour. Labor rates charged by some foreign
repair stations are even lower. For instance, one repair station we visited in
Mexico charges approximately $40 per hour for airframe repairs. One airline
reported that air carriers save 30 to 40 percent by sending maintenance work to
repair stations instead of completing the repairs in-house.

In addition to the lower labor rates, air carriers use repair stations because, in some
instances, these facilities have expertise in certain specialized areas that air
carriers’ in-house maintenance facilities are not equipped or staffed to handle. For
example, many carriers outsource engine repairs because of the high cost required
to maintain the capability to repair them. These types of repairs require
specialized equipment, staffing, and inventory. As a result, sending work such as


Executi ve Summar y                                                                                        viii
engine repairs to specialty shops is less expensive for air carriers than it would be
to equip their in-house facilities for this type of work.

As of December 2002, major air carriers outsource from 33 to 79 percent of their
total aircraft maintenance expense, as shown in Figure 4.

                Figure 4. Major Airlines’ Percentage of Maintenance Outsourcing for 2002

                $1,400

                $1,200

                $1,000

                  $800
     Millions




                  $600
                                              38%
                  $400                                               38%         44%
                                        77%                65%                              65% 33%
                           79%                                                                                    50%
                  $200

                    $0



                                                                                               st
                            a




                                                                      a




                                                                                                        d
                                                                l




                                                                                   st
                                                an
                                      t
                                    es




                                                             ta
                         sk




                                                                                            we



                                                                                                       it e
                                                                     elt


                                                                                we
                                                 ic



                                                           en
                     la


                                  aW




                                                                                                              A US
                                                                    D




                                                                                                                      s
                                                                                                    Un
                                                                                              h
                                              er




                                                                             th




                                                                                                                   ay
                    A




                                                           in




                                                                                           ut
                                          Am




                                                                           or




                                                                                                               ir w
                                   ic




                                                        nt




                                                                                        So
                                                                           N
                                                      Co
                                er
                           Am




                                              Outsourced        Total Expense                       Source: U.S. DOT Form 41




FAA inspectors must recognize this increased use of outsourced maintenance and
adjust their level of oversight accordingly. Yet, we found no indication that FAA
has taken action to adjust its surveillance activities to more closely monitor air
carriers’ use of these facilities. In fact, we found that FAA has no process in place
to determine how much air carriers use repair stations. This problem is
particularly pronounced in air carriers’ use of foreign repair stations—FAA could
not tell us how much maintenance work is sent overseas. When we attempted to
identify which repair stations were used most by selected air carriers, inspectors
stated that they do not collect this information and do not feel it is part of their
oversight responsibility to monitor this activity. As a result, FAA is not tracking a
key segment of air carriers’ maintenance operations. FAA must ensure it provides
a balanced look at all entities performing major maintenance work for air carriers.




Executi ve Summar y                                                                                                            ix
FAA Should Consider a New Approach to Repair Station
Oversight
Two groups of inspectors within FAA monitor aircraft repair stations; however,
neither group places adequate emphasis on these facilities as part of their
surveillance. FAA’s district office inspectors have primary responsibility for
conducting repair station inspections; however, they typically only inspect repair
stations once or twice a year. Although FAA’s certificate management office
inspectors periodically inspect repair stations as part of their responsibility for
oversight of air carrier operations, these inspections are infrequent and do not
include a review of the work the repair station performs for other customers. In
addition, district office and certificate management office inspectors do not share
with each other the inspection information they have obtained. We found
vulnerabilities of varying degrees within the operations of 18 of the 21 repair
stations we visited, which suggest FAA’s oversight process has been ineffective.

FAA Has Enhanced Its Oversight of Air Carriers’ Internal Maintenance
Procedures, But Has Not Made Similar Adjustments to Its Repair Station
Oversight. Aircraft maintenance is an essential component of a safe aviation
system. In recent years, FAA has taken steps to address shortcomings in its
oversight of air carriers’ internal maintenance. For example, after the 1996
ValuJet crash, FAA formed a task force to perform a 90-day review of FAA’s
oversight of air carriers. In response to the findings from this review, FAA
introduced its Air Transportation Oversight System (ATOS), a new air carrier
inspection system aimed at proactively evaluating an air carrier’s entire operation.
However, although ATOS inspectors can inspect outsourced maintenance facilities
used by their assigned carrier, we found that ATOS inspections primarily focus on
oversight of major air carriers’ internal operations and systems. FAA has not
taken steps to enhance its oversight of repair stations.

In 1997, the National Transportation Safety Board recommended that FAA
(1) ensure that passenger aircraft maintenance receives the same level of FAA
oversight, regardless of whether it was performed in-house or by repair stations,
and (2) review the workload of inspectors assigned oversight responsibility for
repair stations to ensure those inspectors have sufficient time and resources to
perform surveillance. Although these recommendations were made over 6 years
ago, we found the same weaknesses in repair station oversight prevail today.

FAA needs to modify its process for repair station oversight. Inspectors
responsible for oversight of air carrier operations (ATOS certificate management
inspectors) do not inspect repair stations completing significant portions of
maintenance work for their assigned air carrier with the level of intensity with
which they inspect the carrier’s internal maintenance program. For example, in
FY 2002, certificate management inspectors for 1 air carrier completed

Executi ve Summar y                                                               x
292 maintenance-related inspections, of which only 6 (2 percent) were for
outsourced maintenance. Given the current trend toward outsourcing, FAA
certificate management inspectors must re-evaluate this approach.

Further, the FAA district office inspectors that have primary responsibility for
repair station oversight have so many other operators to oversee, they cannot
devote the level of intensity to repair station oversight that is warranted. Further
compounding these problems is the fact that the two groups of FAA inspectors do
not share the limited repair station inspection information they have obtained.
These shortcomings in FAA’s oversight structure limit the effectiveness of the
surveillance that inspectors provide of repair station operations and preclude FAA
from getting maximum utilization of its inspector resources.

Certificate Management Office Inspectors. In October 1998, as part of its new
ATOS system, FAA assigned designated groups of inspectors to perform
continuous monitoring of all phases of each major air carrier’s internal operations.
For example, in one Certificate Management Office, FAA assigned 27 inspectors
to oversee one carrier’s maintenance operations. Every year, these inspectors
review numerous areas of the carrier’s maintenance programs, including aircraft
airworthiness requirements, maintenance technicians’ experience requirements,
maintenance manual currency, inventory control, deferred maintenance programs,
compliance with Airworthiness Directives, maintenance training programs, and air
carrier’s systems for oversight of repair stations. This volume and variety of
inspections is possible because certificate management office inspectors make
multiple visits to the air carrier’s facility each year.

While certificate management inspectors are responsible for oversight of their air
carrier’s operations, they are not required to regularly inspect repair stations that
may be completing significant amounts of the air carrier’s maintenance work.
Certificate management inspectors rely on inspectors from other FAA offices to
monitor these facilities. For example, in 2002, certificate management inspectors
performed 199 reviews of 1 air carrier’s internal maintenance operations and only
7 reviews of repair stations used by this carrier. However, this air carrier
outsourced 65 percent of its maintenance costs in 2002. As shown in Figure 5, the
level of intensity with which certificate management office inspectors inspect
repair stations is consistent among the certificate management offices, regardless
of how much each air carrier currently uses outsourced facilities.




Executi ve Summar y                                                               xi
                                                      Figure 5. Percentage of Repa ir Station Inspections Completed by
                                                                  FAA Certificate Management Inspectors in FY 2002
                                 450
                                                                                                                                                                                                           2%
                                 400


                                 350
         Number of Maintenance                                                                                                                                                            2%
         Inspections Completed
                                                                                        6%
                                 300                                                                                                                             2%
                                                                                                                                               3%
                                 250             3%

                                 200
                                                                   6%
                                 150
                                                                                                            1%           4%
                                 100


                                 50


                                   0
                                                  A                 B                                                       E              F                                                                    I
                                               er                er                  ier
                                                                                         C
                                                                                                        ier
                                                                                                            D
                                                                                                                         er             er
                                                                                                                                                               ier
                                                                                                                                                                   G
                                                                                                                                                                                  ier
                                                                                                                                                                                      H                   ier
                                         rri               rri                   r                  r              rri            rri                      r                  r                    ar
                                                                                                                                                                                                      r
                                       Ca                Ca               C
                                                                              ar
                                                                                             C
                                                                                                 ar              Ca             Ca                  C
                                                                                                                                                        ar
                                                                                                                                                                       C
                                                                                                                                                                           ar                  C

                                                                                                                 Major Air Carrier
                                                                                                                                                                                               Sourc e: FAA ATOS Database
                                                                        Repair Station Maintenance Inspections
                                                                        In-House Maintenance Inspections


District Office Inspectors. Primary responsibility for oversight of repair stations
falls with FAA’s district office inspectors. However, these inspectors are only
required to perform one review at each repair station per year, regardless of the
amount of work these facilities complete for major air carriers on critical aircraft
parts. FAA senior management officials stated that contrary to our findings,
district office inspectors actually perform thousands of repair station inspections
each year.

In reviewing FAA’s Performance Tracking and Reporting System, we determined
that FAA inspectors do in fact record thousands of instances where repair station
inspections were performed. However, in evaluating the records supporting these
inspections, we found that the number of inspections recorded is misleading. For
example, we determined that one FAA inspector recorded completion of a repair
station inspection when he accompanied our auditors to the repair station. This
inspector did not remain on site with us for the review but his inspection record
indicated that he completed a facility inspection during this visit.

In other instances, we found that inspectors recorded completion of inspections for
reviewing manual changes submitted by the repair stations to the FAA office for
review. In still another instance, we found that an inspector recorded completion
of 10 different inspections in 1 day for a visit to 1 repair station. While inspectors
do perform other functions in their oversight of repair stations, such as approving
changes to the facility’s procedures manual, which are captured in FAA’s
inspection database as inspection activities, we found that inspectors generally
conduct full facility inspections at their assigned repair stations only once or twice


Executi ve Summar y                                                                                                                                                                                                         xii
a year. Because district office inspectors are also responsible for oversight of
many different types of operators, the amount of time they can devote to repair
station inspections is often limited. For example, 1 FAA inspector was assigned
oversight responsibilities for 32 agricultural operators, 19 repair stations, 7 on-
demand operators, 2 helicopter operators, and 1 maintenance school.

Because of their multiple responsibilities, district office inspectors do not have
time to apply the level of intensity to repair station oversight that certificate
management inspectors are able to apply to air carriers’ in-house maintenance
operations. As a result, district office inspectors typically evaluate a few phases of
a repair station’s operations, such as tool calibration or maintenance manual
currency, during a facility inspection. Because of the competing demands of their
workload, inspectors informed us they sometimes spend as little as 3 hours on a
repair station inspection. One inspector advised us that he could complete a small
repair station inspection in 20 minutes, and eight inspectors informed us they
could complete inspections within 2 to 8 hours. FAA senior management officials
questioned the inspection time reported by FAA inspectors. They contend that if
these inspectors had followed the guidance that outlines the tasks inspectors are
required to complete during an inspection, inspectors could not have completed
inspections this quickly. However, because district office inspectors do not
document what they did to complete an inspection, we have no way of knowing
whether the inspectors completed all required tasks.

FAA senior management officials recently informed us that they are conducting a
test to reassign oversight of repair stations that are operated by a major air carrier
to the same office that provides oversight of the carrier. If FAA elects to change
oversight responsibility for air carrier repair stations, this change could help to
reduce some of the workload for district office inspectors. However, the change in
oversight responsibilities would create new challenges. For example, FAA must
ensure that certificate management inspectors are properly trained to perform
inspections that evaluate both how the facility operates as a repair station, and
whether repairs performed for other air carriers meet FAA standards. Currently,
certificate management inspectors only review repair stations to determine if the
work performed complies with their assigned air carrier’s maintenance
requirements.

Further complicating the inspectors’ ability to fully evaluate repair station
operations is the fact that inspectors responsible for oversight of foreign repair
stations typically do not conduct unannounced inspections at their assigned
facilities. Because gaining access to foreign countries is a time consuming
process, requiring employees to notify the U.S. Embassy in advance of their travel
and, in most cases, to obtain a visa issued by the country to be visited, these
inspectors are unable to conduct surprise inspections. As a result, FAA inspectors


Executi ve Summar y                                                               xiii
typically rely on inspections at foreign facilities that may have had several months
advanced notice to prepare for the inspection.

Sharing of Information. Compounding the weaknesses in FAA’s current
oversight structure for repair stations is the fact that the two groups of inspectors
that conduct repair station inspections do not share inspection information.
Inspectors’ primary means of sharing information is through FAA’s newly
integrated SPAS. This system was designed to act as a repository of vital
inspection information that all inspectors could use for targeting surveillance to
the areas of greatest need.

However, key pieces of inspection information are omitted from the SPAS
database. For example, certificate management inspectors are not required to
provide the names of repair stations they have inspected and district office
inspectors are not required to identify what areas they reviewed at each repair
station they inspected. As a result, certificate management and district office
inspectors are unable to use the database to share historical data on repair station
inspections and help FAA better target its inspector resources. In addition,
inspectors in FAA’s International Field Office in Germany, which has oversight
responsibility for 238 repair stations in 29 countries, advised us that they do not
have access to SPAS at all. FAA senior management officials recently informed
us that the manager of the FAA office in Germany acknowledged telling us that
office did not have access to SPAS; however, she stated she had “misinformed” us
on this issue. Because the manager and staff were so adamant in their assertion
that inspectors in the Germany field office did not have access to SPAS during our
visit, we can only conclude that the inspectors were not using this database at that
time.

Areas That Need Improvement. Our review disclosed weaknesses in repair
station operations at 18 of the 21 (86 percent) repair stations we visited. For
example, we identified repair stations that did not: (1) use the parts required by
the maintenance manual in completing repairs, (2) properly calibrate tools and
equipment that could be used in repairs, (3) have information on file to show that
mechanics approving completed repairs possessed the necessary training and
qualifications, or (4) correct deficiencies previously identified by FAA inspectors.
Left uncorrected, these deficiencies could lead to an erosion of safety. These
problems went undetected by FAA surveillance because of the weaknesses in
FAA’s oversight structure and the process inspectors used during repair station
inspections.

Parts and Equipment. Some FAA inspectors review in-process work when
conducting inspections at repair stations. While this is the best approach to ensure
that the work the repair station is presently performing is completed according to


Executi ve Summar y                                                              xiv
FAA standards, it limits the inspector’s ability to review the entire repair process
from beginning to end. As a result, important safety problems may not be
detected. For example, during our review of completed work, we determined that
one domestic repair station used three incorrect bushings during the overhaul of a
portion of a flight control assembly on a Boeing 727 aircraft. According to a
Boeing engineer, if these parts failed, it could result in aircraft handling problems.
FAA’s surveillance at this facility had not detected the use of incorrect parts
because inspectors did not routinely compare parts used in repairs to those called
for in the maintenance manual. We found problems with parts and equipment
used in repairs at 15 of the 21 facilities (71 percent) we visited. FAA inspectors
should ensure that they review the entire repair process at repair stations including
completed and in-process work.

Training. Of the 21 repair stations we visited, 8 repair stations (38 percent) did
not maintain training files for supervisory personnel that substantiated that they
had qualifications and abilities to supervise the repairs performed. For example,
one repair station employee could not demonstrate through training records that he
was qualified to complete the final inspection for a repair of an engine oil pressure
transmitter, although he did inspect the work. Although the employee was
properly licensed by FAA, his training files contained no evidence that the repair
station had provided him training on how to properly inspect this repair. In 2005,
FAA’s new rule governing repair station operations will require that each repair
station have a training program that will ensure it can demonstrate that employees
have necessary training to perform their work. With this impending change, FAA
inspectors should begin to look at how repair stations document the training and
qualifications of repair station personnel.

Policies and Procedures. We found problems with maintenance policies and
procedures at 15 of the 21 repair stations we visited. During a tour of one repair
station, we identified the repair station’s failure to properly segregate scrapped
parts from usable parts. These parts were part of a ballscrew assembly, which the
repair station compared to the jackscrew assembly that failed on Alaska Airlines
Flight 261. These parts were left unlocked and uncontrolled on the shop floor
right next to where maintenance work was being done. The scrapped parts were
awaiting disposition instructions from the customer and did not appear to be
physically damaged. The scrapped parts could have been mistakenly used by a
mechanic in a repair. This was a standard practice used by the repair station and
should have been identified during routine surveillance by FAA inspectors.

Uncorrected Repetitive Deficiencies. We identified instances in which FAA
inspectors found deficiencies during repair station inspections but did not take
action to ensure that these deficiencies were corrected or did not determine the
root cause of the problems. For example, we found that one domestic repair


Executi ve Summar y                                                                xv
station did not properly cover and protect hoses and lines used to test fuel pumps.
Failure to cover these lines and hoses could allow debris to enter these parts,
which could affect the operation of the engine. The FAA inspector had identified
the problem at this repair station on three separate occasions but did not take
decisive action to ensure the problem was corrected. More disturbing, when we
identified this problem for the fourth time and notified the inspector, the inspector
still did not take enforcement action against the repair station. Of the 21 repair
stations we visited, 2 foreign and 2 domestic repair stations failed to correct
deficiencies previously identified by inspectors.

Conclusion. Air carriers’ increased use of repair stations and the procedures FAA
uses to provide oversight of these facilities have left vulnerabilities in the quality
of aircraft repairs performed at these facilities. To identify and address repair
station deficiencies, FAA should modify the way it conducts inspections to keep
pace with the changing aviation environment. FAA certificate management
inspectors should monitor air carrier maintenance expenses and repair station
usage for trends and target surveillance toward maintenance facilities air carriers
use to complete significant amounts of their aircraft maintenance. Additionally,
inspection results should be shared with FAA inspectors responsible for repair
station oversight for more effective use of FAA resources.


FAA Should Strengthen Its Oversight of Surveillance Conducted
by Foreign Civil Aviation Authorities
FAA inspectors’ primary means of monitoring surveillance currently conducted by
three foreign civil aviation authorities is through desk reviews of inspection
documentation provided by each authority.               However, the inspection
documentation FAA receives from these authorities does not contain sufficient
information to effectively monitor the quality of the foreign authorities’ oversight.
Further, foreign inspectors tend to focus inspections on European regulations
rather than FAA standards. While FAA can perform sample inspections at FAA-
certified foreign repair stations, its internal guidance limits the number of such
inspections it can conduct each year. As a result, FAA is unable to determine if
the work performed at some FAA-certified foreign repair stations meets FAA
standards.

Through agreements with other countries, inspectors in three foreign countries
conduct oversight and certification inspections of aircraft repair stations for FAA.
In October 1999, the Governments of the United States and France signed an
agreement under which FAA and its French counterpart agreed to accept each
other’s surveillance systems, including recommendations for FAA repair station
certification and certification renewal, and continued monitoring of maintenance



Executi ve Summar y                                                               xvi
practices. To date, the French Civil Aviation Authority has assumed oversight
responsibility for 76 FAA-certified repair stations.

In April 1999 and June 1997, the United States entered into similar agreements
with the Governments of Ireland and Germany, respectively. To date, 62 repair
stations in Ireland and Germany have been turned over to the applicable aviation
authority for oversight responsibility. However, the number of FAA-certified
repair stations monitored by foreign authorities could significantly expand in the
future because of ongoing efforts by European countries to develop a single
European aviation authority. The European Union, currently consisting of
15 countries, including Germany, Ireland and France, has agreed to form the
European Aviation Safety Agency (Agency), and be legally bound to enter into
agreements with other countries only as a single entity. FAA may develop a
bilateral aviation safety agreement with the Agency, which could encompass
Agency oversight of FAA-certified repair stations in the 15 member countries.

Inspection Documentation Provided to FAA Is Incomplete or
Incomprehensible. Although inspectors from foreign civil aviation authorities
make determinations that repair stations are performing work using FAA-
approved practices, FAA has not required these authorities to provide sufficient
information to FAA inspectors to verify that these determinations were sound. We
reviewed inspection documentation provided by the French civil aviation authority
in detail and found that the documentation was incomplete or incomprehensible in
14 of 16 (88 percent) repair station files we selected for detailed review. For
example, although inspection records should be provided to FAA in English, key
records on what was reviewed and what was found at repair stations were often
submitted in French. While at the International Field Office, we identified only
one FAA inspector fluent in French.

In other cases, FAA was unable to determine what areas the aviation authority
reviewed and whether the problems identified during inspections were corrected.
For example, all four of the inspection files we reviewed of repair stations in
Germany and Ireland were lacking sufficient inspection documentation from the
aviation authorities to determine whether corrective actions for identified
discrepancies were taken or were adequate. For example, the inspection
documentation for one repair station in Germany presented a finding that “No
conditions fixed, decision in isolation case” and no corrective action was
identified. There was no evidence in the repair station files to indicate that FAA
notified the foreign civil aviation authorities of the need for more thorough and
comprehensible inspection documentation.

FAA Standards Are Not Emphasized During Surveillance. In addition to
providing poor documentation of inspection results, foreign inspectors tailored


Executi ve Summar y                                                          xvii
their surveillance more toward European regulations than FAA regulations. This
became evident when FAA conducted a sample inspection at one repair station
monitored by foreign inspectors and identified numerous deficiencies pertaining to
FAA requirements.

For example, FAA inspectors found that the repair station was subcontracting out
work to other foreign facilities that were not FAA-certified and performing repairs
for which the repair station was not FAA-approved. The aviation authority that
inspected this facility did not identify these issues during its surveillance at the
facility. Further, FAA has not developed a procedure, within the sample
inspection process, to determine why the foreign authority did not identify FAA-
related deficiencies during its routine oversight. Moreover, although sample
inspections are highly effective in assessing the quality of foreign authority
inspections, FAA has agreed to limit the number of such inspections it will
perform to 10 percent.

At two repair stations in France where French inspectors performed oversight, we
identified deficiencies that needed to be addressed. For example, personnel who
were responsible for conducting final inspections on aircraft repairs at one repair
station could not read and understand an Airworthiness Directive (AD)4 when
asked, because the document was written in English. The agreement between
France and the United States specifically requires repair station personnel that are
approving repairs to be able to read and understand the English language. The AD
in question required the repair station to perform additional work steps to prevent
premature failure of a key engine part. The foreign aviation authority’s inspectors
never identified this as a problem. As a result, our audit tests reiterated FAA
sample inspection findings that indicate foreign civil aviation authorities do not
emphasize FAA regulations when conducting inspections at repair stations.

While the use of reciprocal agreements for inspection of repair stations was
developed to ease the financial burden on repair stations and to eliminate
duplicative surveillance activities, FAA has not implemented adequate oversight
procedures for ensuring the quality of inspections conducted on its behalf. Before
agreements with other countries are implemented, FAA must ensure it receives
sufficient inspection documentation from inspectors at the three civil aviation
authorities already conducting inspections on its behalf. Also, FAA must ensure
that foreign inspectors provide increased emphasis on FAA requirements to give
FAA assurance that FAA-certified repair stations inspected by other aviation
authorities meet FAA standards.



4
    FAA issues Airworthiness Directives to provide actions that operators must take to correct or prevent an unsafe
    condition on an aircraft.


Executi ve Summar y                                                                                         xviii
RECOMMENDATIONS
  To enhance FAA oversight of domestic and foreign repair stations, we
  recommended that FAA:

     §   use air carrier maintenance financial data to identify trends in the source of
         maintenance and adjust oversight inspections accordingly.

     §   develop a process to identify the repair stations air carriers use to perform
         safety critical maintenance and target inspector resources based on a risk
         assessment of data collected on air carriers’ outsourcing practices.

     §   require both certificate management and district office inspectors to include
         complete repair station inspection information in the Safety Performance
         Analysis System to assist in targeting use of inspector resources.

     §   develop a comprehensive, standardized approach to repair station
         surveillance by requiring inspectors to review all aspects of repair station
         operations, from the time repairs are received until they are released to the
         customer.

     §   modify existing inspection documentation requirements with applicable
         foreign aviation authorities and develop procedures to verify that inspectors
         from foreign aviation authorities place adequate emphasis on FAA
         requirements when conducting reviews on FAA’s behalf.

     §   revise procedures for conducting sample inspections of repair stations being
         monitored by foreign aviation authorities to permit FAA to conduct the
         number of inspections necessary to ensure that FAA-certified repair
         stations are complying with FAA standards.




AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE


  On June 19, 2003, FAA provided comments to our May 30, 2003 draft report. On
  July 2, 2003, we met with FAA senior management officials to further discuss the
  report and FAA’s response.

  In its comments, FAA stated that our sample size may have been too small to
  obtain accurate information and draw positive conclusions. We would point out


  Executi ve Summar y                                                              xix
that, in order to obtain a representative sample of repair stations to review, we
selected facilities that were geographically dispersed throughout the country and
the world and that varied substantially in the type of work they performed. For
example, we visited repair stations in six different states that covered all regions of
the United States and five countries in Europe, Asia and South America. The
repair stations we visited performed repairs on all parts of the aircraft including:
the airframe, engines, landing gear, flight control assemblies, and fuel pumps.

In addition, before initiating our audit work, we consulted with the Office of
Inspector General Statistician to determine the number of repair stations we should
visit to perform a review of a statistically representative sample of domestic and
foreign repair stations.        Our sample size exceeded the Statistician’s
recommendation to review 10 domestic and 10 foreign repair stations. Finally, it
is important to recognize that the results of our review identified systemic
problems at the repair stations we visited, which, as we stated in the report,
demonstrates that FAA needs to improve its oversight of the work performed at
these facilities.

In responding to the report, FAA concurred with all of our recommendations.
Specifically, FAA agreed to:

Ø form a workgroup to evaluate various measurements available to identify
  trends in the source of maintenance and select the proper metrics. The
  workgroup will complete its work within 6 months, and FAA will develop
  policies and procedures to use these measures to identify trends and make
  changes in inspector resources as warranted. In the meantime, FAA will
  identify where critical repair work is performed and consider any available
  financial data to determine if there is a trend toward outsourcing such work;

Ø develop a new process to identify repair stations air carriers use to perform
  safety critical repairs and target inspector resources based on risk assessments
  or analysis of data collected on air carriers’ outsourcing practices;

Ø develop procedures to improve information sharing through the Safety
  Performance Analysis System by requiring certificate management inspectors
  to document the name of the repair station they have reviewed and revising the
  guidance for district office inspectors to more thoroughly document repair
  station inspections;

Ø clarify its policies and procedures for requiring a comprehensive, standardized
  approach to repair station surveillance, including the review of total repair
  station operations;




Executi ve Summar y                                                                 xx
Ø conduct follow-up reviews with the three foreign aviation authorities to ensure
  they are complying with recently issued policy regarding inspection
  documentation requirements, and instruct Field Office Managers with
  responsibility for these agreements to ensure that documentation is in English
  and addresses the elements of repair station inspections;

Ø develop policies and procedures to capture results from foreign aviation
  authority inspections and FAA sample inspections of foreign repair stations in
  its Program Tracking and Reporting System;

Ø develop a procedure to verify that foreign aviation authorities place adequate
  emphasis on FAA regulations when conducting inspections on FAA’s behalf;

Ø clarify procedures requiring foreign aviation authorities to obtain FAA
  approval on any changes to FAA-certified repair station operations that directly
  impact FAA requirements; and

Ø clarify that the current sample size for conducting sample inspections
  (10 percent of the repair stations) is the minimum adequate number needed to
  gain assurance that the foreign aviation authority’s inspections meet FAA
  standards. The fact that FAA is clarifying its policy on the number of sample
  inspections it can perform at foreign repair stations is a step in the right
  direction, particularly given that FAA inspectors stated the 10 percent sample
  inspection limit was too restrictive.

FAA’s response was constructive and the actions the agency commits to should
significantly improve safety oversight of both domestic and foreign repair stations.
However, FAA will have to provide target dates for completing the actions before
we consider these recommendations resolved.




Executi ve Summar y                                                             xxi
                             TABLE OF CONTENTS

TRANSMITTAL MEMORANDUM
EXECUTIVE SUMMARY ................................................................................. i
CHAPTER 1. INTRODUCTION ...................................................................... 1
    Background................................................................................................ 1
    Objectives, Scope, and Methodology ........................................................ 4
    Prior Audit Coverage.................................................................................. 5
CHAPTER 2. AIR CARRIERS HAVE INCREASINGLY USED
REPAIR STATIONS FOR AIRCRAFT MAINTENANCE ................................ 7
CHAPTER 3. FAA SHOULD CONSIDER A NEW APPROACH
TO REPAIR STATION OVERSIGHT............................................................ 12
CHAPTER 4. FAA SHOULD STRENGTHEN ITS OVERSIGHT
OF SURVEILLANCE CONDUCTED BY FOREIGN CIVIL
AVIATION AUTHORITIES............................................................................ 24
CHAPTER 5. RECOMMENDATIONS.......................................................... 31
EXHIBIT A. ENTITIES VISITED ................................................................... 35
EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT......................... 38
APPENDIX. MANAGEMENT COMMENTS .................................................. 39
Chapter 1. Introduction

                                   Background
The recent economic downturn in the aviation industry has caused many carriers
to look for ways to reduce operating costs. Because of the cost savings that can be
realized, air carriers have increasingly turned to outside repair facilities to perform
their aircraft maintenance work. In 1996, major air carriers spent $1.5 billion
(37 percent of their total maintenance costs) for outsourced aircraft maintenance.
However, in 2002, the major carriers outsourced $2.5 billion (47 percent of their
total maintenance costs) in maintenance work. During this same time period,
U.S. carriers experienced 13 accidents and incidents, 10 of which have been tied to
improper maintenance or maintenance mistakes. Of these 10 accidents tied to
improper maintenance, 4 have been linked to aircraft repair stations.

Currently, there are approximately
                                                        Scope of FAA Oversight
650 foreign and 4,600 domestic Federal             Approximately      3,300     FAA    safety
Aviation Administration (FAA)-certified            inspectors provide oversight worldwide to:
repair stations. According to FAA, 1,742               5,250 repair stations
of its 3,300 aviation safety inspectors                139 commercial air carriers
perform surveillance at these facilities. In           637,000 active pilots
                                                       273,000 aircraft mechanics
addition to performing oversight of repair             7,600 commercial aircraft
stations, these inspectors also provide                11,000 charter aircraft
oversight for 700 aviation training                    220,000 general aviation aircraft
facilities and 139 commercial air carriers,            700 aviation training facilities
and perform other duties such as accident
investigations.

Work performed at aircraft repair stations is monitored by many different entities,
as illustrated in Figure 1. These groups create a series of overlapping controls
designed to ensure repairs are completed properly.




Chapter 1. Introduction                                                                     1
                              Figure 1. Oversight of FAA-Certified Repair Stations

                                                                      FAA
                                                                Flight Standards
                                                                 District Office
                                                                   Inspectors
                                                                     (3,041)                    FAA
                                            FAA                                             Certificate
                                       International                                        Management
                                       Field Office                                            Office
                                        Inspectors                                           Inspectors
                                           (105)          FAA-Certified                        (153)


                                                          Repair Stations
                                                     Civil
                                                   Aviation                        Air Carrier
                                                  Authorities                       Auditors
                                                  Inspectors




Although all these groups provide oversight of repair stations, FAA is ultimately
responsible for ensuring repair stations operate in a manner that ensures repairs are
completed according to FAA’s standards.

FAA Flight Standards District Office (district office) inspectors have primary
responsibility for conducting surveillance at aircraft repair stations. Repair
stations that perform maintenance for the major commercial air carriers are also
inspected by FAA’s Certificate Management Office (certificate management)
inspectors through FAA’s Air Transportation Oversight System (ATOS).
Certificate management inspectors are assigned to one specific air carrier. In
addition to overseeing the operations of the air carrier, certificate management
inspectors can perform repair station inspections of the facilities that perform
significant work for their assigned air carrier.

When repair stations are certified by more than one country, aviation authorities
from each country conduct oversight of those facilities. Repair stations are billed
for the cost of this oversight by each authority. To reduce the financial burden on
repair stations and to eliminate duplicative surveillance activities, FAA and the
European Joint Aviation Authorities1 developed Bilateral Aviation Safety
Agreements and accompanying Maintenance Implementation Procedures. A
Bilateral Aviation Safety Agreement is a government-to-government agreement
that lays out a framework for the aviation authorities to cooperate on aviation
safety issues. Maintenance Implementation Procedures define the terms and
conditions under which the authorities accept each other’s maintenance facility
inspections, thereby reducing redundant regulatory oversight.


1
    The European Joint Aviation Authorities represent 37 countries that have agreed to cooperate in developing and
    implementing common safety regulatory procedures.



Chapter 1. Introduction                                                                                         2
Through Maintenance Implementation Procedures, the United States has
empowered the aviation authorities of France, Germany and Ireland to perform
oversight on FAA’s behalf for repair stations located in their respective countries.
In October 1999, the Governments of the United States and France signed an
Agreement under which FAA and its French counterpart agreed to accept each
other’s surveillance systems. To date, oversight of 76 FAA-certified repair
stations has been assumed by French inspectors. In April 1999 and June 1997, the
United States entered into similar agreements with the Governments of Ireland and
Germany, respectively. To date, oversight of 62 FAA-certified repair stations in
Ireland and Germany have been turned over to the applicable aviation authority.

The aviation authorities of France, Germany and Ireland now conduct surveillance
at 138 repair stations on FAA’s behalf. However, FAA-certified repair stations in
other countries are still monitored by FAA inspectors. Of the 650 FAA-certified
foreign repair stations, over 500 are still certified and inspected by FAA
inspectors.

In August 2001, FAA published a new rule governing domestic repair station
operation (Title 14 Code of Federal Regulations Part 145). The two major
changes to the existing rule are requirements for repair stations to have a repair
station manual, which incorporates a training program, and a quality control
manual. The repair station manual will describe how the facility will operate (i.e.,
organizational structure, recordkeeping systems, and training program). The
quality control manual will describe the repair station’s inspection program and
quality system (i.e., procedures for inspecting incoming parts and materials,
calibrating tools, and maintaining up-to-date manuals).

Currently, repair stations are required to have an Inspections Procedures Manual,
which essentially contains the same information FAA will soon require in
two separate manuals, with the exception of the training program. The training
program requirement was added to the new rule to ensure repair station personnel
are trained and knowledgeable on the work performed and to ensure training
records are maintained for a minimum of 2 years.

The new repair station rule was originally scheduled to become effective
April 6, 2003 (for the repair station manual) and April 6, 2005 (for the training
program). However, FAA delayed the April 6, 2003, effective date for repair
station manuals for 180 days to give repair stations more time to develop the
manuals because FAA guidance on how to prepare the manuals has not yet been
issued.

Generally, there are four basic areas in which requirements differ between
domestic and foreign repair stations. These differences are highlighted below.


Chapter 1. Introduction                                                           3
                                    Key Differences in the Requirements
                                  for Domestic and Foreign Repair Stations

     Domestic Repair Stations                                   Foreign Repair Stations


     • Do not pay for certification                             • Pay fee for certification and
       costs incurred by FAA                                      renewal costs incurred by FAA

     • FAA certification lasts                                  • FAA certification must          be
       indefinitely                                               renewed every 1 to 2 years

     • FAA requires employees to                                • FAA does not require
       be subject to drug and                                     employees to be subject to drug
       alcohol testing                                            and alcohol testing

     • Certain      repair   station                            • Repair station personnel are not
       personnel are required to be                               required to be certified by FAA.
       certified by FAA                                           However, personnel may be
                                                                  certified by the aviation
                                                                  authority where they are
                                                                  located.

                           Objectives, Scope, and Methodology
The objectives of this audit were to determine if FAA: (1) ensures that repair
stations have controls in place to provide adequate security of aircraft and repair
facilities; (2) verifies that foreign civil aviation authorities conducting inspections
on FAA’s behalf ensure that aircraft are adequately safeguarded, repairs are
completed properly, and any identified deficiencies are corrected; (3) monitors
changes in air carriers’ maintenance expenses and repair station usage to identify
notable trends and effectively target FAA’s surveillance resources; and (4) ensures
that maintenance work at FAA-approved repair stations is performed by trained,
qualified personnel and complies with approved maintenance procedures.

This report does not address security at aircraft repair stations. Because of the
sensitive nature of the information, issues pertaining to security at repair stations
inspected by FAA and those inspected by civil aviation authorities on FAA’s
behalf were addressed in a separate document.2



2
    Report Number AV-2003-026, “Security at Aircraft Repair Stations,” dated February 28, 2003.



Chapter 1. Introduction                                                                                4
The audit fieldwork was conducted from February 2002 to March 2003 at FAA
Headquarters, nine Flight Standards District Offices, three Certificate
Management Offices, and five International Field Offices. In addition, we visited
12 domestic and 9 foreign aircraft repair stations to evaluate the effectiveness of
FAA’s oversight of the repair stations’ maintenance. We also visited two foreign
repair stations to evaluate the effectiveness of FAA’s monitoring of surveillance
conducted by other civil aviation authorities on FAA’s behalf.

We contracted with Simat, Helliessen and Eichner, Inc. (SH&E), an international
air transport consulting firm, to assist us in reviewing maintenance procedures at
four of the domestic and seven of the foreign aircraft repair stations we visited.
We accompanied SH&E on all of their repair station reviews. The repair stations
included in the audit are listed in Exhibit A.

To evaluate trends in air carriers’ outsourced maintenance practices, we obtained
“Form 41” financial data that air carriers submit to the Department’s Bureau of
Transportation Statistics for major air carriers from 1996 to 2002. We compared
the amount of direct maintenance expense air carriers incurred for outside airframe
and engine repairs to the amount the carriers incurred for total direct maintenance
expense for flight equipment.

To evaluate repair station operations, we selected recent work orders for repairs
performed on U.S. registered aircraft. For each of the work orders selected, we
performed the following audit tests: determined if the repair station used the
correct and current maintenance manual; determined if the repair station used the
appropriate parts in the repair and if the parts were traceable to an approved
source; and determined if the mechanics who performed the work had evidence of
task-specific training in their training files. We also observed shop conditions and
repair procedures during our tour of each repair facility.

We performed the audit in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States and included such tests
of procedures and records as we considered necessary.


                             Prior Audit Coverage
We issued Report R4-FA-4-009, “Report on Audit of the Certification and
Surveillance of Domestic and Foreign Repair Stations,” on March 7, 1994. The
audit disclosed use of aircraft parts of unknown design, quality, and origin;
outdated repair manuals; substitute parts not approved by manufacturers; and parts
repaired by subcontractors not approved by the FAA. The audit also disclosed the
need to improve the clarity of the Federal Aviation Regulations (FAR) and FAA
technical guidance, the prioritization of surveillance inspections, and the quality of


Chapter 1. Introduction                                                             5
surveillance inspections and reports. As a result of this audit, FAA issued new
guidance to clarify when parts can be substituted for those called for in the
maintenance manual. Additionally, FAA revised its guidance to provide
additional information on the type of documentation that should be available in the
FAA’s inspection files and when FAA inspectors should perform follow-up
inspection activity. FAA also stated the proposed revision to FAR Part 145 would
address some of the issues presented in the report. (FAA expected the new rule to
be issued in 1995; however, the rule was not issued until 2001.)

The General Accounting Office (GAO) issued Report GAO/RCED-98-21, “FAA
Oversight of Repair Stations Needs Improvement,” in October 1997. The audit
disclosed that FAA’s inspection approach limited its ability to ensure compliance
at large repair stations. The report stated that even though teams of inspectors
were shown to be more effective, most FAA offices assigned an individual
inspector to each repair station, including large and complex repair stations. FAA
inspectors admitted that their inspections were not as thorough as they would like
due to demands on their time. The report also concluded that better inspection
documentation is needed to ensure repair stations are complying with regulations
and to identify performance trends. While FAA generally agreed with GAO’s
recommendations, FAA did not indicate how or when the recommendations would
be implemented.




Chapter 1. Introduction                                                          6
Chapter 2. Air Carriers Have Increasingly Used Repair
Stations for Aircraft Maintenance
Even though air carriers are currently using repair stations for close to half of their
maintenance expense, FAA has continued to focus its surveillance on air carriers’
in-house facilities with no comparable shift toward increased oversight of work
performed at repair stations. As illustrated in Figure 2, air carriers outsourced just
over a third of their maintenance expense to repair facilities in 1996; however, air
carriers outsourced nearly half of their maintenance costs in 2002.

        Figure 2. Percentage M aintenance O utso urcing for M ajo r A ir C arrie rs
                                   from 19 96 to 2 002
                                                                            O u tsou rci n g C ost
              $7.0                                                          Total C ost

              $6.0

              $5.0
   Billions




              $4.0
                                                           44 %     47 %    47 %
              $3.0                               45 %
                              38 %      41 %
                     37 %
              $2.0

              $1.0

              $0.0
                      1996       1997     1998     1999      2000    2001       2002

  So urce: U.S. DOT Form 4 1 Report s             Ye ars



Because of the financial benefits, some air carriers have customarily placed heavy
reliance on outsourcing maintenance work to keep operating costs down. For
example, four major air carriers (America West, Continental, Alaska, and
Southwest) have consistently outsourced at least 63 percent of their maintenance
costs to repair stations during the last 5 years. However, with the sharp economic
downturn in the aviation industry, even those carriers that did not traditionally rely
on extensive outsourcing are re-evaluating this decision. For example, Delta Air
Lines outsourced 19 percent of its maintenance expense in 1996; however, the
carrier doubled the percentage of maintenance expense that it outsourced in 2002
to 38 percent. Similar dramatic shifts towards outsourcing for Delta Air Lines and




Chapter 2. Air Carriers Have Increasingly Used Repair Stations for Aircraft
Maintenance                                                                7
two other air carriers not typically known to extensively outsource maintenance
work are shown in Figure 3.

                                         Figure 3. Growth in Outsourced Maintenance in 1996 and 2002
                                                        for Three Major Air Carriers

                                  $1,000,000,000                                            33%
                                    $900,000,000                 38%             19%
    Total Maintenance Expense




                                    $800,000,000                                                          31%        44%
                                    $700,000,000

                                    $600,000,000         19%
                                    $500,000,000

                                    $400,000,000

                                    $300,000,000

                                    $200,000,000

                                    $100,000,000

                                                $0
                                                     CY 1996 CY 2002           CY 1996 CY 2002           CY 1996 CY 2002

                                                              Delta                      United             Northwest
                                                                             Airline/Calendar Year

                                Source: US DOT Form 41 data     In-house Maintenance        Outsourced Maintenance




Recently, many airlines have reduced their workforce, closed maintenance
facilities, and retired aircraft to reduce their operating expenses. Some airlines
have used the bankruptcy process to restructure their costs and renegotiate labor
contracts. At least one major air carrier has announced plans to abrogate its
current union contract, which restricts the amount of maintenance work that can be
outsourced, in order to outsource more. In fact, this air carrier has closed two of
its maintenance bases. The airline has reported that it will save 50 percent on
costs for major aircraft repairs by outsourcing the work to repair stations.

Air carriers outsource portions of their maintenance work in order to reduce their
overall maintenance costs. Air carriers can negotiate lower labor rates at
outsourced facilities because repair stations often have lower overhead and pay
lower wages to their mechanics. While details of labor rates are closely guarded
by air carriers, in-house labor rates to complete airframe work have been reported
to be as high as $83 per hour, while the same repair at a repair station ranges from
$45 to $47 per hour. One major air carrier informed us that repairs to seats and
coffee makers can be performed by repair stations for about $32 per hour;
however, if this same work were completed in-house it would cost $83 per hour.



Chapter 2. Air Carriers Have Increasingly Used Repair Stations for Aircraft
Maintenance                                                                8
Labor rates charged by some foreign repair stations are even cheaper. For
instance, one repair station we visited in Mexico informed us that they generally
charge about $40 per hour for airframe repairs. One airline reported that air
carriers save about 30 to 40 percent by sending maintenance to repair stations
instead of completing the repairs in-house.

Air carriers also use aircraft repair stations because they have expertise in certain
specialized areas that air carriers’ in-house facilities are not equipped or staffed to
handle. For example, many carriers outsource engine repairs because of the high
cost required to maintain the capability to repair them. These types of repairs
require specialized equipment, staffing, and inventory. As a result, sending these
types of repairs to specialty shops is less expensive for air carriers than it would be
to equip their in-house facilities for this type of work.

As of December 2002, major air carriers outsourced from 33 to 79 percent of their
total aircraft maintenance expense, as shown in Figure 4.

                    Figure 4. Major Airlines’ Percentage of Maintenance Outsourcing
                                                for 2002
                $1,400

                $1,200

                $1,000

                 $800
     Millions




                 $600
                                             38%
                 $400                                              38%           44%
                                       77%                65%                               65% 33%
                         79%                                                                                         50%
                 $200

                   $0
                                                                                                                      s
                                                                                              st
                           a




                                                                       a




                                                                                                         d


                                                                                                                      ay
                                                                                   st
                                               an
                                     t
                                   es
                        sk




                                                                                            we
                                                                   elt




                                                                                                        it e
                                                               l




                                                                                we
                                                            ta




                                                                                                                   irw
                                                ic
                                 aW
                     la




                                                                   D
                                                          en




                                                                                                     Un
                                                                                              h
                                             er




                                                                             th
                    A




                                                                                           ut




                                                                                                               SA
                                                          in
                                         Am




                                                                           or
                                  ic




                                                                                        So
                                                       nt




                                                                           N
                               er




                                                                                                               U
                                                     Co
                         Am




                                                                                                  Source: U.S. DOT Form 41 Reports

                                                           Outsourced       Total Expense



FAA inspectors must recognize this increased use of outsourced maintenance and
adjust their level of oversight accordingly. We identified these trends through
analysis of publicly available U.S. Department of Transportation Form 41 reports
compiled by the Bureau of Transportation Statistics (BTS). Major air carriers
submit financial data, such as total maintenance costs and outsourcing costs, to
BTS quarterly. Monitoring the data for trends in increased outsourcing could help


Chapter 2. Air Carriers Have Increasingly Used Repair Stations for Aircraft
Maintenance                                                                9
FAA determine when shifts in inspector resources are warranted due to changes in
where maintenance work is completed.

While our audit focused on major air carriers’ use of aircraft repair stations, we
performed a limited analysis of outsourcing by other air carriers. Based on this
analysis, we determined that trends in maintenance outsourcing may be common
throughout the industry. For example, Atlantic Southeast Airlines, a subsidiary of
Delta Air Lines, currently uses outsourced maintenance providers for two-thirds of
its maintenance costs, as shown in Figure 5.
                                  Figure 5. Percentage of Outsourced Maintenance Expense for
                                                     Atlantic Southeast Airlines from 1996 to 2002

                            $100,000,000

                             $90,000,000


                             $80,000,000
     Maintenance Ex pense




                             $70,000,000
                                                                                                            70%
                             $60,000,000
                                                                                  68%           50%                         66%
                             $50,000,000

                             $40,000,000
                                                                     54%
                             $30,000,000                 45%
                                           39%
                             $20,000,000


                             $10,000,000


                                      $0

                                                1996        1997           1998         1999       2000        2001          2002
                                                                                   Calendar Year
                            Sourc e: BTS For m 41 data         Outsourced Maintenance Expense   Total Maintenance Expense




Yet, we found no indication that FAA has taken action to adjust its surveillance
activities to more closely monitor air carriers’ use of these facilities. In fact, we
found that FAA has no mechanism in place to obtain information on how much
work is outsourced, domestically or overseas. FAA inspectors believe it is not
part of their oversight responsibility to track this information.

Since Form 41 reports that air carriers provide to the Department do not
distinguish the amount of maintenance expense attributable to foreign and
domestic repair stations, we requested that five major air carriers provide detailed
information on the amount of maintenance work they outsourced to domestic and
foreign repair stations from 1996 to 2001. Only one air carrier fully complied
with our request. The other air carriers provided outsourcing information that was
incomplete. For the one carrier that fully complied with our request, we


Chapter 2. Air Carriers Have Increasingly Used Repair Stations for Aircraft
Maintenance                                                              10
determined the amount of maintenance work that was outsourced to foreign repair
stations increased from 9 percent of total outsourcing costs in 1996 to 26 percent
of outsourcing costs in 2001, as illustrated in Figure 6.

                                          Figure 6. Increase in Outsourcing to Foreign Repair Stations by One Major Air
                                                          Carrier From Ca lendar Year 1996 to 2001


                            $400, 000,000



                            $350, 000,000
     Maintenance Ex pense




                            $300, 000,000


                            $250, 000,000


                            $200, 000,000


                            $150, 000,000
                                                                                                                      26%
                            $100, 000,000
                                                        16%                                               23%
                                                                            14%           21%
                            $50,000,000     9%

                                     $0
                                               1996         1997                1998          1999             2000    2001

                                                                                  Calendar Year
                                                                   Foreign Outsourcing   Total Outsourced Expense




The use of domestic and foreign repair stations to complete aircraft maintenance is
becoming an integral part of air carriers’ maintenance programs. As a result, FAA
must find ways to provide greater oversight of those entities performing
maintenance work for air carriers, both domestically and overseas.




Chapter 2. Air Carriers Have Increasingly Used Repair Stations for Aircraft
Maintenance                                                              11
Chapter 3. FAA Should Consider a New Approach to
Repair Station Oversight
Two groups of inspectors within FAA monitor aircraft repair stations; however,
neither group places adequate emphasis on these facilities as part of their
surveillance. FAA’s district office inspectors have primary responsibility for
conducting repair station inspections. However, the district office inspectors in
the 9 offices we reviewed had oversight responsibility for an average of
23 operators. Because of this tremendous workload, district office inspectors
typically only complete full facility inspections at repair stations once or twice a
year.

FAA’s certificate management inspectors conduct periodic inspections at repair
stations as part of their responsibility for oversight of their air carrier’s operations.
However, these inspections are infrequent and do not include a review of the work
the repair station performs for other customers or a review of the entire repair
station’s operations.

In addition, district office inspectors and certificate management inspectors do not
share with each other the limited repair station inspection information they have
obtained. This is due to the inadequate information input into FAA’s safety
databases and the lack of a documented system to share inspection information.

We identified discrepancies of varying degrees at 18 of the 21 repair stations that
indicate FAA oversight of repair stations needs to be improved. For example, we
identified repair stations that did not: (1) use the parts required by the
maintenance manual in completing repairs, (2) properly calibrate tools and
equipment that could be used in repairs, (3) have information on file to show that
mechanics approving the repair possessed the necessary training and
qualifications, or (4) correct deficiencies previously identified by FAA inspectors.

FAA Has Enhanced Its Oversight of Air Carriers’ Internal Maintenance
Procedures, But Has Not Made Similar Adjustments to Its Repair Station
Oversight. Aircraft maintenance is integral to the safe operation of aircraft. In
recent years, FAA has taken steps to address shortcomings in its oversight of air
carriers’ internal maintenance operations. For example, after the 1996 ValuJet
crash, FAA formed a task force to perform a 90-day review of FAA’s oversight of
air carriers. In response to the findings from this review, FAA introduced ATOS,
a new air carrier inspection system aimed at proactively evaluating an air carrier’s
entire operation. Additionally, after the January 2000 Alaska Airlines crash, FAA
launched a National Program Review to evaluate air carriers’ management


Chapter 3. FAA Should Consider a New Approach to Repair Station
Oversight                                                                             12
programs, including aircraft maintenance. As a result of this review, FAA
identified best practices in the industry and areas in which air carriers could
improve their maintenance programs, including Continuing Analysis and
Surveillance Systems used by air carriers to monitor the effectiveness of their own
maintenance work, and work performed by repair stations. However, FAA has not
made similar advancements in its oversight of repair stations used by air carriers.

In 1997, the National Transportation Safety Board made recommendations to FAA
aimed at improving its oversight of repair stations. Two of the Board’s
recommendations were that FAA should:

   • Ensure that passenger air carriers’ maintenance functions receive the same
     level of FAA surveillance, regardless of whether those functions are
     performed in house or by a contract maintenance facility; and

   • Review the volume and nature of work requirements of principal
     maintenance inspectors assigned to FAA-certified repair stations that
     perform maintenance for air carriers, and ensure that these inspectors have
     adequate time and resources to perform surveillance.

While these recommendations were made over 6 years ago, we found that the
same weaknesses in repair station oversight prevail today. We found that
certificate management inspectors, responsible for oversight of air carrier
operations, do not inspect the repair stations used by their air carrier with the level
of intensity with which they inspect the air carrier’s internal maintenance program.
Further, the district office inspectors, responsible for oversight of repair stations,
cannot devote the level of intensity to repair station oversight that is warranted due
to the competing demands of overseeing multiple operators. Further, these
two groups of FAA inspectors do not communicate with each other. These
shortcomings in FAA’s oversight structure limit the effectiveness of the
surveillance inspectors provide of repair stations. FAA has acknowledged the
need to consider additional methods of repair station oversight. FAA senior
management officials recently advised us that the Agency is working on a risk
management approach to oversight of repair stations.

Certificate Management Office Inspectors. In October 1998, as part of its new
ATOS system, FAA assigned designated groups of inspectors to perform
continuous monitoring of all phases of each major air carrier’s internal operations.
For example, in one certificate management office, FAA assigned 27 inspectors to
oversee one air carrier’s maintenance operations. Every year, certificate
management inspectors review numerous areas of the carriers’ maintenance
programs, including aircraft airworthiness requirements, maintenance technicians’


Chapter 3. FAA Should Consider a New Approach to Repair Station
Oversight                                                                           13
experience requirements, maintenance manual currency, inventory control,
deferred maintenance programs, compliance with Airworthiness Directives,
maintenance training programs, and air carriers’ systems for oversight of repair
stations. This volume and variety of inspections are possible because certificate
management inspectors make multiple visits to in-house maintenance facilities
each year.

Certificate management inspectors may inspect repair stations as part of their
surveillance of an air carrier’s maintenance program. However, these reviews are
primarily focused on determining if the repair station followed the carrier’s repair
procedures when completing repairs. Air carrier procedures may reflect FAA-
approved changes unique to an individual carrier’s fleet. However, because repair
stations are only one element of certificate management inspectors’ oversight
responsibilities for the vast operations of large air carriers, only a small sample of
repair stations are reviewed each year.

In fiscal year (FY) 2002, certificate management inspectors completed an average
of 220 inspections of internal maintenance procedures for the major carriers.
During this same time period, these inspectors completed an average of only
7 inspections of outsourced maintenance facilities used by these carriers. For
example, in FY 2002, one Certificate Management Office completed
400 inspections of its air carrier’s internal maintenance operations and only
7 outsourced maintenance inspections. This air carrier outsourced 44 percent of
its maintenance expense to repair stations in 2002. The level of intensity with
which certificate management inspectors monitor repair stations is consistent
among the Certificate Management Offices, regardless of how much the air carrier
currently outsources, as shown in Figure 7.




Chapter 3. FAA Should Consider a New Approach to Repair Station
Oversight                                                                          14
                                                       Figure 7. Percentage of Repa ir Station Inspections Completed by
                                                                   FAA Certificate Management Inspectors in FY 2002
                               450
                                                                                                                                                                                                 2%
                               400


                               350
       Number of Maintenance                                                                    6%                                                                                2%
       Inspections Completed                                                                                                                         3%           2%
                               300


                               250
                                                         3%

                               200
                                                                            6%
                               150
                                                                                                                   1%               4%

                               100


                                50


                                 0
                                                  rA                   rB                                                            rE                rF                                                     rI
                                                ie                   ie                    rC                     rD               ie                ie                  rG                rH           r   ie
                                            r                    r                   r   ie                 r   ie             r                 r                     ie                ie          ar
                                         ar                   ar                  ar                     ar                 ar                ar                ar
                                                                                                                                                                   r
                                                                                                                                                                                  ar
                                                                                                                                                                                     r
                                                                                                                                                                                                 C
                                     C                    C                   C                      C                  C                 C                 C                 C

                                                                                                                        Major Air Carrier
                                                                                                                                                                                                Sourc e: FAA ATOS Dat abase
                                                                            Repair Station Maintenance Inspections
                                                                            In-House Maintenance Inspections


Under FAA’s current oversight structure, inspectors do not track which repair
stations air carriers are using most frequently. Each air carrier is required to
advise FAA of its repair stations that are “Substantial Maintenance Providers.”
These repair stations are designated as “Substantial Maintenance Providers”
because they have the capabilities to conduct major repairs for the air carrier’s
aircraft fleet. However, these repair stations may not be completing a substantial
amount of work for the air carrier. For example, one foreign repair station
designated as a Substantial Maintenance Provider for a major U.S. air carrier had
not conducted any significant maintenance work for the carrier in almost 3 years.
However, because it was designated as a Substantial Maintenance Provider for the
carrier, it is subject to FAA oversight by the certificate management office.
FAA’s surveillance would be better targeted to those repair stations the carrier
uses regularly. However, because FAA inspectors are not required to obtain air
carrier financial data as part of their surveillance of air carrier operations, this
important safety indicator is not used.

District Office Inspectors. FAA district office inspectors are directly responsible
for ensuring all FAA-certified repair stations complete repairs according to FAA
standards. However, these inspectors have oversight responsibility for many other
operators in addition to repair stations.

FAA’s current pay structure is designed to compensate inspectors based on the
nature of their work assignments and their level of responsibility. Work


Chapter 3. FAA Should Consider a New Approach to Repair Station
Oversight                                                                                                                                                                                                                     15
assignments that are more technically complex bring higher compensation. For
example, a principal inspector for a large air carrier will be paid more than an
inspector performing general surveillance duties, because principal inspectors
shoulder more responsibility.

As a result of this current pay structure, it is not uncommon for inspectors to be
responsible for the oversight of several operators, repair stations, mechanics and
training schools. For example, one inspector in the Southern Region was assigned
32 agricultural operators, 19 repair stations, 7 on-demand operators, 2 helicopter
operators, and 1 maintenance school. Because of these competing demands,
inspectors may limit their surveillance time at aircraft repair stations.

Because of other workload responsibilities, district office inspectors do not
monitor all phases of repair stations’ operations. Although a team of inspectors is
assigned responsibility for a major air carrier’s in-house maintenance operation,
the district office inspectors in the 9 offices we reviewed had oversight
responsibility for an average of 23 operators, 9 of which were repair stations. In
fact, one inspector admitted there is not enough time to perform thorough repair
station inspections and that he just “skims the top” of repair stations’ operations.

While inspectors may visit repair stations throughout the year, they typically
conduct full facility inspections once or twice a year. FAA senior management
officials stated that contrary to our findings, district office inspectors actually
perform thousands of repair station inspections each year. In reviewing FAA’s
Performance Tracking and Reporting System, we determined that FAA inspectors
do in fact record thousands of instances where repair station inspections were
performed. However, in evaluating the records supporting these inspections, we
found that the number of inspections recorded is misleading. For example, we
determined that one FAA inspector recorded completion of a repair station
inspection when he accompanied our auditors to the repair station. This inspector
did not remain on site with us for the review but his inspection records indicated
that he completed a facility inspection during this visit.

In other instances, we found that inspectors recorded completion of inspections for
reviewing manual changes submitted by the repair stations to the FAA office for
review. In still another instance, we found that an inspector recorded completion
of ten different inspections in one day for a visit to one repair station. While
inspectors do perform other functions at repair stations, such as approving changes
to the facility’s procedures manual, which are captured in FAA’s inspection
database as inspection activities, we found that, generally, inspectors conduct full
facility inspections at their assigned repair stations only once or twice a year.




Chapter 3. FAA Should Consider a New Approach to Repair Station
Oversight                                                                        16
In addition, the amount of time FAA dedicates to these repair station inspections
can be surprisingly short. For example, one inspector told us that a repair station
inspection may take as little as 20 minutes, and eight district office inspectors we
interviewed claimed they could perform an inspection within 2 to 8 hours.
Inspections of such short duration are possible because inspectors generally only
look at segments of the repair station’s operations, such as tool calibration or
maintenance manual currency, during each visit. FAA senior management
officials questioned the inspection time reported by FAA inspectors. They
contend that if these inspectors had followed the guidance that outlines the tasks
that are required to complete an inspection, inspectors could not have completed
inspections this quickly. However, because district office inspectors do not
document what they did to complete an inspection, we have no way of knowing
whether the inspectors completed all the required tasks.

Some air carriers also operate FAA-certified repair stations that conduct work for
other air carriers. Currently, district office inspectors are responsible for
conducting surveillance at these facilities. FAA senior management officials
recently informed us that FAA is conducting tests to determine the feasibility of
reassigning oversight of repair stations operated by major carriers to the same
Certificate Management Office that provides oversight of the air carrier.

If FAA does elect to change the oversight structure for air carrier repair stations,
the change may reduce some of the workload for the district office inspectors. If
and when this change occurs, FAA must then ensure that certificate management
inspectors are properly trained in conducting repair station inspections that include
a review of work completed for all customers, not just its own air carrier. For
example, if inspectors responsible for oversight of Delta Air Lines assume
responsibility for Delta’s repair station, these inspectors must be trained on how to
review Delta’s procedures for completing work on aircraft other than Delta’s.
Additionally, FAA will need to develop a way to capture these inspections in its
inspection databases.

Further complicating the inspectors’ ability to fully evaluate repair station
operations is the fact that inspectors responsible for oversight of foreign repair
stations typically are unable to conduct unannounced inspections at their assigned
facilities. Gaining access to foreign countries is a time consuming process,
requiring employees to notify the U.S. Embassy in advance of their travel and, in
most cases, obtaining a visa issued by the country to be visited. FAA inspectors
informed us that in some cases, foreign travel requires inspectors to obtain a
formal invitation from the country to make the site visit. As a result, these
inspectors are unable to conduct surprise inspections and must typically rely on




Chapter 3. FAA Should Consider a New Approach to Repair Station
Oversight                                                                         17
inspections conducted at facilities that may have had months to prepare for the
inspection.

FAA Inspection Offices Do Not Share Inspection Information. FAA’s
certificate management inspectors and district office inspectors both conduct
inspections at aircraft repair stations. However, these offices do not routinely
share valuable inspection information with each other.

Inspectors’ primary means of sharing information is through FAA’s newly
integrated Safety Performance Analysis System (SPAS). This system was
designed to act as a repository of vital inspection information that all inspectors
could use for targeting surveillance to the areas of greatest need. However, this
database is only as good as the information that is put into the system. For
example, certificate management inspectors are not required to provide the names
of repair stations they have inspected, and district office inspectors are not
required to provide what was inspected at each repair station in the databases that
are entered into SPAS. As a result, key pieces of inspection information are
omitted, and inspectors are unable to share important historical inspection
information. If the data provided in these databases included all repair station
names visited and the areas reviewed at each facility, certificate management and
district office inspectors could use this valuable tool to better target FAA’s
inspector resources.

In addition to the need to improve the usability of FAA’s inspection database,
FAA district offices responsible for repair station oversight and the certificate
management offices responsible for oversight of the major air carriers must
establish better lines of communication. When a certificate management inspector
performs a review at a repair station, the inspector only ensures that the repair
station is performing repairs in accordance with the policies and procedures of the
specific air carrier that Certificate Management Office is responsible for
overseeing. The inspector does not perform an overall evaluation of the repair
station.

The district offices have the responsibility of performing a thorough review of all
repair stations. However, the district offices and the certificate management
offices do not routinely communicate with each other regarding the results of
repair station inspections. As a result, certificate management inspectors may be
unaware of critical repair station violations that could impact the operations of
their air carriers. With better communication about inspection results, these FAA
offices should become more familiar with the operations and identified
weaknesses of the repair stations they oversee and should be able to better target
their inspection resources.



Chapter 3. FAA Should Consider a New Approach to Repair Station
Oversight                                                                       18
Further, some FAA inspectors do not have access to the SPAS database at all.
During our visit to FAA’s International Field Office in Germany, we requested
information from the SPAS database for various repair stations within that office’s
geographic area of responsibility. The inspectors in this office informed us they
did not have access to this database. FAA senior management officials recently
informed us that the manager of the FAA office in Germany acknowledges telling
us that office did not have access to SPAS; however, she stated she had
“misinformed” us on this issue. Because the manager and staff were so adamant
in their assertion that inspectors in the Germany field office did not have access to
SPAS during our visit, we can only conclude that the inspectors were not using
this database at that time.

The FAA office in Germany is responsible for oversight of over 230 repair
stations. Of these repair stations, 13 are designated as Substantial Maintenance
Providers for major air carriers. Certificate management inspectors typically
conduct reviews of facilities designated as Substantial Maintenance Providers, as
part of their oversight of air carrier operations. However, because inspectors in
the Germany International Field Office stated that they did not have access to
SPAS, or were not using the system, these inspectors could not access or use
inspection results for repair station reviews performed by certificate management
inspectors. Access to certificate management inspections of repair stations in their
jurisdiction would help the inspectors in Germany better target their inspection
resources.

FAA Should Revise Its Oversight Process to Correct Weaknesses That Could
Lead to an Erosion of Safety if Left Uncorrected. Our review disclosed
discrepancies in domestic and foreign repair station operations that went
undetected by FAA surveillance at 18 of the 21 (86 percent) repair stations we
visited. These discrepancies went undetected by FAA surveillance because of the
weaknesses in FAA’s oversight structure and the process FAA inspectors used
during repair station inspections. For example, FAA had not identified problems
with repair stations’ use of improper parts and equipment in repairs and
qualification of maintenance personnel. In addition, mechanics at one major
U.S. air carrier identified 6,000 discrepancies on an aircraft that had returned from
a major maintenance check at a foreign repair station. As a result of these
discrepancies, the air carrier submitted six service difficulty reports3 to FAA.
These service difficulty reports detailed severe corrosion and cracks throughout
the aircraft. Other discrepancies we identified at repair stations included using
improper parts and equipment, insufficient training documentation, inadequate
policies and procedures, and uncorrected repetitive deficiencies.
3
    Air carriers are required to submit a service difficulty report to FAA within 72 hours of the detection or occurrence
    of each failure, malfunction, or defect that has endangered or may endanger the safe operation of an aircraft.



Chapter 3. FAA Should Consider a New Approach to Repair Station
Oversight                                                                                                            19
Parts and Equipment. FAA’s oversight of foreign and domestic repair stations did
not verify that the repair stations used FAA-approved parts and properly calibrated
equipment in repairs at 15 of the 21 (71 percent) facilities we visited.

Through our audit work and the work performed by our contractor, we found
problems at seven foreign and eight domestic repair stations, such as mechanics
using the wrong part or using parts that could not be traced to the manufacturer,
and using equipment and tools that were not properly calibrated. For example,
one domestic repair station used three incorrect bushings during the overhaul of a
portion of a flight control assembly on a Boeing 727 aircraft. According to a
Boeing engineer, if these parts failed, it could result in aircraft handling problems.
However, FAA’s surveillance at this facility had not detected the use of incorrect
parts because inspectors do not routinely compare parts used in repairs to those
called for in the maintenance manual.

Seven months after our initial review, we made a return visit to this repair station
to follow up on the improper part substitution. Even though the FAA inspector
claimed to have made several visits to the facility to correct the deficiencies
identified, we found that the computerized replacement part listing, which is used
by mechanics performing the repair, still referenced the improper part number.
Because the repair station failed to correct the computerized parts listing, the
repair station mechanics could have inadvertently continued using the incorrect
bushings in subsequent repairs. As a result of our follow-up visit, the FAA
inspector opened an investigation related to the repair station’s procedures for
substituting parts.

In another example, one foreign repair station routinely extended the calibration
interval for numerous tools used in the repair of aircraft parts without
substantiation and concurrence from the manufacturers of the tools. This practice
could result in parts being returned to service that do not meet the standards and
specifications called for in the manufacturers’ maintenance manuals.

Training. Of the 21 repair stations we visited, 8 repair stations (38 percent) did
not maintain training files for final inspection and supervisory personnel that
substantiated that they had qualifications and abilities to supervise the repairs
performed. For example, training records for one repair station employee did not
show that the employee was qualified to complete the final inspection for a repair
of an engine oil pressure transmitter, though he did inspect the work. Although
the employee was properly licensed as a mechanic by FAA, his training files
contained no evidence that the repair station had provided him specific training on
how to properly inspect this repair.




Chapter 3. FAA Should Consider a New Approach to Repair Station
Oversight                                                                          20
Although the current FAR Part 145 does not specifically require that employee
training records show that employees are qualified and trained to do the work, new
repair station regulations do contain specific training record requirements.
Beginning in April 2005, the new regulation will require certificated repair
stations to have an FAA-approved employee training program that includes initial
and recurrent training. This training program must ensure that each employee
assigned to perform maintenance and inspection functions is capable of
performing the assigned task. The new rule will also require repair stations to
document each employee’s training and maintain the records for a minimum of 2
years. The sooner repair stations begin to comply with these impending
requirements imposed by the new regulation, the easier the transition will be when
the new rule becomes effective.

Policies and Procedures. We identified weaknesses in maintenance practices at
15 of the 21 repair stations (71 percent) that we visited. Of these 15 repair
stations, 7 were foreign and 8 were domestic. Our findings raised questions about
the repair stations’ ability to ensure repairs had been completed properly. We
found instances where these repair stations used outdated maintenance manuals,
failed to segregate scrapped parts from usable parts, and neglected to notify FAA
of changes to the repair station’s work capabilities.

Each repair station maintains a list of work that FAA has approved it to perform.
Air carriers rely on these lists as FAA certification that the facility has
demonstrated that it has the personnel and equipment to perform the work.
However, we found one foreign repair station, whose FAA-approved capabilities
list authorized the facility to conduct tests to detect surface and internal defects on
aircraft parts, did not have the capabilities to accomplish these types of
inspections. The FAA inspector responsible for oversight of this repair station did
not identify and correct the inaccuracy in the repair station’s capability list. As a
result, FAA left its stamp of approval for the facility to conduct tests on items it
did not have the expertise to complete.

In another example, one domestic repair station failed to properly segregate
scrapped parts from usable parts. The parts were the large threaded component of
a ballscrew assembly, which the repair station compared to the jackscrew
assembly that failed on Alaska Airlines Flight 261. These aircraft parts were left
unlocked and uncontrolled on the shop floor right next to where the work was
being done. The scrapped parts were awaiting disposition instructions from the
customer and did not appear to be physically damaged. These parts could have
been mistakenly used by a mechanic in a repair or stolen and illegally sold on the
black market, thus finding their way back onto in-service aircraft.




Chapter 3. FAA Should Consider a New Approach to Repair Station
Oversight                                                                           21
We also identified five repair stations (two domestic and three foreign) that failed
to complete all required work steps or failed to sign-off on other work that had
been accomplished. For example, a mechanic at one domestic repair station failed
to sign-off that he completed required corrosion inspections on an anti-icing duct
connected to an engine. Because the mechanics failed to sign-off on all finished
work steps, the customer has no assurance that the repairs were completed as
required by the maintenance manual.

Uncorrected Repetitive Deficiencies. In some cases, FAA identified deficiencies
during repair station inspections, but did not take action to ensure that these
deficiencies were corrected or failed to determine the root cause of the problem.
Of the 21 repair stations we visited, 2 foreign and 2 domestic repair stations failed
to correct deficiencies previously identified by FAA inspectors. For example, we
found that one domestic repair station failed to properly cover and protect hoses
and lines used in repairs. The FAA inspector had previously found this problem
on three separate occasions but did not take decisive action to ensure the problem
was corrected. More disturbing, even after we identified this problem for the
fourth time and notified the inspector, the inspector still did not take enforcement
action against the repair station.

FAA inspectors also failed to identify the underlying cause of the deficiencies
identified at repair stations, which could result in repetitive deficiencies. For
example, during an annual inspection at one foreign repair station, an FAA
inspector identified a thermometer that was not properly calibrated. The repair
station informed FAA that it had taken steps to properly calibrate the thermometer.
Because the repair station personnel received no further response from the FAA
inspector, they assumed their corrective action was adequate. However, the repair
station should have determined the reason its calibration program failed to identify
that the tool had not been calibrated. Consequently, repair station personnel could
have overlooked other tools that had not been properly calibrated.

Summary. The problems we identified at aircraft repair stations can be attributed
to FAA inspectors’ inability to perform continuous, comprehensive surveillance at
these facilities due to their oversight responsibilities for all aviation certificates.
Because FAA repair station surveillance is merely one part of the wide range of
their responsibilities, FAA inspectors face significant challenges in ensuring that
safety standards are maintained. For example, one FAA inspector was assigned
oversight responsibility for 21 repair stations, 21 agricultural operations,
12 service-for-hire operators, 3 general aviation operators, 2 helicopter operations,
and 1 maintenance school. The FAA inspector’s responsibilities include
inspecting the various facilities, approving changes to operating procedures, and
ensuring the safety of air carrier operations. Because the rules and regulations


Chapter 3. FAA Should Consider a New Approach to Repair Station
Oversight                                                                           22
differ for each certificate type, FAA inspectors must be knowledgeable and
experienced in every discipline in order to provide effective oversight. Due to the
large workload, inspectors typically only conduct one repair station facility
inspection annually.

Because inspectors rely on infrequent visits at each repair station, inspectors must
enhance their inspection procedures to ensure they accomplish an efficient and
effective review of all aspects of the repair station’s operations. Currently, each
inspector determines how he will satisfy his surveillance requirements. Based on
our inspector interviews and observations, annual inspections primarily consist of
reviewing repair stations’ written procedures and in-process maintenance work.
Due to time constraints, inspectors do not routinely verify the source of parts used
or if the parts used were the ones authorized by the manufacturer. Additionally,
inspectors do not typically review training records of personnel authorizing the
repairs to determine if they have been properly trained.

To make more efficient use of inspectors’ surveillance time at aircraft repair
stations, FAA should develop a comprehensive, standardized approach to repair
station surveillance that includes reviews of the actual work performed from the
beginning to the end of the repair process. For example, by reviewing
documentation maintained by the repair station for the work performed (i.e., work
order packages), inspectors can determine whether the repair station used the most
current manuals to complete repairs, the parts called for in the manual, properly
calibrated tools and equipment to complete the repair, and personnel that were
adequately trained. By fully evaluating the work performed, FAA inspectors can
efficiently and effectively evaluate all aspects of the repair station’s operations.




Chapter 3. FAA Should Consider a New Approach to Repair Station
Oversight                                                                        23
Chapter 4. FAA Should Strengthen Its Oversight of
Surveillance Conducted by Foreign Civil Aviation
Authorities
FAA has not effectively monitored surveillance currently conducted by
three foreign aviation authorities on FAA’s behalf. FAA inspectors’ primary
means of monitoring surveillance conducted by other authorities is through desk
reviews of inspection documentation provided by each authority. However, the
inspection documentation FAA receives does not contain sufficient information to
effectively determine whether repair stations are complying with FAA standards.
Further, foreign inspectors tend to focus their inspections on compliance with
European regulations rather than FAA standards.           Because of the poor
documentation received and the lack of focus by foreign authorities on FAA
requirements, FAA is unable to determine if FAA-certified foreign repair stations
meet FAA standards.

Through agreements with other countries, inspectors in three foreign countries
conduct oversight and certification inspections of FAA-certified aircraft repair
stations for FAA. In October 1999, the Governments of the United States and
France signed an agreement under which FAA and its French counterpart agreed
to accept each other’s surveillance systems, including recommendations for FAA
repair station certification and certification renewal, and continued monitoring of
maintenance practices.

To date, the French Civil Aviation Authority has assumed oversight responsibility
for 76 FAA-certified repair stations. In April 1999 and June 1997, the United
States entered into similar agreements with the Governments of Ireland and
Germany, respectively. To date, 62 repair stations in Ireland and Germany have
been turned over to the applicable aviation authority for oversight responsibility.
However, the number of FAA-certified repair stations monitored by other foreign
aviation authorities could significantly expand in the future because of ongoing
efforts by European countries to develop a single European aviation authority that
includes aviation activities in at least 15 member countries, including France,
Germany and Ireland. If the United States elects to continue aviation agreements
with the European Union, the new agreement would cover aviation activities in all
member countries.

Inspection Documentation Provided to FAA Is Incomplete or
Incomprehensible. Although inspectors from foreign civil aviation authorities
make determinations that repair stations are performing work using FAA-
approved practices, FAA has not required these authorities to provide sufficient


Chapter 4. FAA Should Strengthen Its Oversight of Surveillance
Conducted by Foreign Civil Aviation Authorities                                 24
information to FAA inspectors to verify that these determinations were sound.
FAA has agreed to accept the foreign aviation authorities’ inspection forms as
documentation of completed inspections.          However, these forms contain
incomplete or incomprehensible information. As a result, FAA inspectors cannot
verify that inspections conducted on its behalf ensure repair stations meet FAA
standards. Additionally, there was no evidence in the repair station files to
indicate that FAA notified the aviation authorities of the need for more thorough
inspection documentation.

We reviewed inspection documentation provided by one aviation authority in
detail and found that the inspection documentation provided was incomplete or
incomprehensible for 14 of 16 repair station files (88 percent) sampled. For
example, a foreign aviation authority submitted an inspection report to FAA in
which the findings, while written in English, were incomprehensible. One finding
stated:

      In reference to the Manifold n° 2570 dated 18/10/99, the response to
      the observation n° 12 was not respected. This problem is recurring
      and the launched corrective actions are ineffective….

The corrective action identified for this finding merely states “GQ01G019/DP”.

While references to particular documents were probably easily understood by the
inspectors at the foreign aviation authority because they had the documentation in
question, an FAA inspector who did not have access to these documents would not
be able to ascertain what this finding or the subsequent corrective action entailed.
According the information provided, the finding appears to be repetitive, and FAA
should be aware of the issues involved. However, there is no evidence in FAA’s
file on this repair station that FAA requested additional clarifying information
from the aviation authority that completed the inspection.

During our review of FAA’s inspection files, we identified another inspection
report submitted to FAA by a foreign aviation authority in which three of the four
required sections of the report were written in French. The sections of the
inspection report that were in French included the areas the inspectors reviewed
during the inspection and the findings and corrective actions taken by the repair
station. As a result, unless they were fluent in French, FAA inspectors could not
determine, based on the documentation provided, whether this repair station was
complying with FAA standards or whether the corrective actions taken satisfied
FAA requirements. During our visit to this FAA office, we identified one FAA
inspector that was fluent in French. This inspector was only assigned 3 of the
10 facilities for which inspection documentation was submitted in French.



Chapter 4. FAA Should Strengthen Its Oversight of Surveillance
Conducted by Foreign Civil Aviation Authorities                                  25
We also reviewed four inspection files of FAA-certified repair stations inspected
by the aviation authorities of Germany and Ireland. All four of these files lacked
sufficient documentation for FAA to determine if corrective actions were taken or
if the corrective actions taken were adequate. The explanations of findings at
one repair station were incomprehensible.        For example, the inspection
documentation for one repair station in Germany stated a finding was “No
conditions fixed, decision in isolation case.” Additionally, no corrective action
was identified for this discrepancy.

To further complicate FAA’s historical tracking of repair station operations,
inspections conducted by other aviation authorities are not included in FAA’s
inspection database. For example, we reviewed FAA’s inspection database for
nine repair stations that had been turned over to the French civil aviation authority
for surveillance. FAA’s database did not contain inspection information from the
time the surveillance responsibilities had been turned over to the French
authorities for all nine repair stations. (Most repair stations were turned over to
the French authorities in 2000; we reviewed the inspection database in 2002.)
FAA inspectors informed us that FAA had not developed a way to capture
inspections conducted by other authorities in their inspection database (Program
Tracking and Reporting System). Additionally, inspectors were concerned about
the possible legal ramifications of documenting inspection results performed by
another entity. As a result, FAA’s inspection database is incomplete for repair
stations turned over to other aviation authorities from the point the repair stations’
surveillance responsibilities were released to other aviation authorities. This lack
of inspection information also affects certificate management office inspectors
who use this database to target surveillance for repair stations that are used by the
major air carriers.

FAA Standards Are Not Emphasized During Surveillance. In addition to the
poor documentation received from the aviation authorities, the foreign aviation
inspectors tailor surveillance more toward European regulations than FAA
regulations. Under the current agreement, there are over 20 differences between
European repair station regulations and FAA regulations. Some of the FAA repair
station requirements that are not required by the European regulations follow.

   • The repair station must have procedures to ensure personnel that approve
     aircraft parts for return to service and personnel responsible for supervision
     or final inspection of work on U.S. registered aircraft are able to read, write,
     and understand English.

   • The repair station must retain an English-language copy of the
     manufacturers’ maintenance manuals used to complete repairs.


Chapter 4. FAA Should Strengthen Its Oversight of Surveillance
Conducted by Foreign Civil Aviation Authorities                                    26
   • The repair station must have procedures explaining how they will ensure
     they have all FAA Airworthiness Directives applicable to the work they are
     performing.

   • If the repair station contracts work out to a non-FAA-certified repair
     station, the subcontracted repair station must be under the control of the
     principal repair station’s quality monitoring system.

The foreign aviation authorities’ emphasis on European regulations when
conducting inspections at FAA-certified repair stations became evident when FAA
conducted independent sample inspections at some of the facilities monitored by
foreign inspectors and identified numerous deficiencies pertaining to FAA
requirements. For example, FAA conducted a sample inspection at 1 repair station
that resulted in 45 findings such as the repair station subcontracting out work to
repair stations that were not FAA-certified, repairing parts that the repair station
was not approved by FAA to repair, failing to properly calibrate tools, and storing
scrapped parts with usable parts. The aviation authority that inspected this facility
did not identify these issues during its surveillance at the facility. Further, FAA
has not developed a procedure, within the sample inspection process, to determine
why the foreign authority did not identify these deficiencies during its routine
oversight.

We selected two repair stations for review to determine the effectiveness of the
French aviation authority’s surveillance at an FAA-approved facility. We
identified deficiencies that needed to be addressed at both facilities. For example,
personnel at one repair station that were responsible for conducting final
inspections on aircraft repairs were unable to read and understand an
Airworthiness Directive (AD) when asked because the document was written in
English. FAA issues ADs to provide actions that operators must take to correct or
prevent an unsafe condition in an aircraft. The AD in question required the repair
station to perform additional work steps to prevent premature failure of a key
engine part. According to FAA, failure to follow these instructions could result in
engine failure. However, at this facility, FAA had little assurance that the
personnel approving the repair understood what type of work needed to be done to
satisfy the requirements of the Airworthiness Directive.

Although the agreement between France and the United States specifically
requires repair station personnel that are approving repairs to be able to read and
understand the English language, the inspectors from this foreign authority did not
identify this as a problem at the repair station. As a result, our own audit tests
reiterated FAA sample inspection findings that indicate foreign aviation


Chapter 4. FAA Should Strengthen Its Oversight of Surveillance
Conducted by Foreign Civil Aviation Authorities                                   27
authorities do not emphasize FAA regulations when conducting inspections at
repair stations.

FAA has permitted foreign authorities to issue operating certificates and approve
changes to the repair station’s procedures without FAA’s knowledge. For
example, at one repair station we visited, we determined that changes to the repair
station’s capability list (i.e., the list that details the parts or equipment on which
the repair station is qualified and approved to perform work) were not sent to FAA
for approval. These revisions, though directly impacting FAA’s certificate with
the repair station, were unknown to FAA. As long as the revisions do not change
the repair station’s ratings, foreign aviation authorities are not required to send any
changes in the repair station’s operations to FAA for approval. This further
hinders FAA in effectively monitoring that FAA-certified repair stations are
complying with FAA requirements.

In finalizing its agreements with France, Germany and Ireland, FAA developed a
process to monitor surveillance conducted by foreign authorities. The foreign
authorities and FAA agreed that FAA could conduct sample inspections of
FAA-certified repair stations for which the French, German and Irish authorities
would provide oversight. However, in FAA’s internal guidance to inspectors on
how to monitor this foreign oversight process (Advisory Circular 145-7A), FAA
limits the number of sample inspections FAA can conduct to 10 percent of the
number of repair stations in each country. For example, the French Aviation
Authority provides oversight of 76 FAA-certified repair stations. According to its
guidance, FAA should only conduct seven inspections of the repair stations in
France each year.

Because the Maintenance Implementation Procedures for the bilateral agreements
with France, Germany and Ireland have been recently implemented, FAA should
not place limitations on its ability to conduct sample inspections at FAA-certified
repair stations until it has assurance that the program is operating as intended and
the inspections conducted by other authorities verify that the repair stations
continue to meet FAA standards. Based on the problems FAA identified during
sample inspections and problems we identified at repair stations where foreign
oversight was conducted, FAA should modify its informal agreement with the
foreign governments and its advisory circular to increase the number of sample
inspections it can conduct each year.

When asked how they thought this new process was working, French civil aviation
authority officials stated the system could be improved. These officials targeted
three areas in which they thought the process should be changed:




Chapter 4. FAA Should Strengthen Its Oversight of Surveillance
Conducted by Foreign Civil Aviation Authorities                                     28
   → Delete the requirement to conduct annual inspections of FAA-certified
     repair stations (i.e., revise the inspection requirements to once every
     2 years);

   → Delete the requirement to inspect the repair stations for the 22 differences
     in FAA and European regulations; and

   → Lower the number of sample inspections FAA can conduct each year.

We disagree with changes proposed by representatives from the French aviation
authority because these elements of the program are necessary to ensure that
FAA-certified repair stations operate in accordance with FAA standards, as is
required of any other FAA-certified repair station. For example, altering
surveillance so FAA-certified foreign repair stations are not inspected at least once
annually and are not inspected for compliance with FAA regulations would be
inconsistent with FAA’s oversight structure for domestic and other foreign repair
stations not covered under this program. FAA must work with the applicable
countries to improve the current process before any changes to the process are
considered.

Due to the poor inspection documentation FAA receives from foreign aviation
authority inspectors, FAA is already severely hindered in its ability to verify the
quality and reliability of inspections conducted by foreign aviation authorities.
While this program was developed to ease the financial burden on repair stations
and to eliminate duplicative surveillance activities, FAA must closely monitor the
inspections conducted on its behalf to ensure that FAA-certified repair stations
continue to meet FAA standards.

It is particularly important that FAA improve its monitoring of surveillance
conducted by foreign aviation authorities on its behalf before agreements with
other countries are completed. At least 15 European countries have agreed to form
a combined European Aviation Safety Agency that would be the only legally
recognized organization with authority to act on behalf of all the member
countries. With the formation of this Agency, current agreements with individual
European countries can no longer exist. In order for FAA and foreign aviation
authorities to maintain an agreement for the foreign authorities to provide
oversight of FAA-certified repair stations, the United States would have to execute
an agreement with the newly formed Agency. As shown in the diagram below, in
addition to the three agreements the United States currently has with France,
Germany and Ireland, the new agreement could include as many as 12 additional
countries.




Chapter 4. FAA Should Strengthen Its Oversight of Surveillance
Conducted by Foreign Civil Aviation Authorities                                   29
    Note: France, Germany and Ireland already have bilateral agreements with the United States.

It is imperative that FAA make substantial improvements in its oversight of
surveillance conducted by the three civil aviation authorities already conducting
inspections on its behalf before negotiations with other countries are finalized.
The incomplete documentation FAA receives from the aviation authorities
coupled with the number of deficiencies FAA identified during sample inspections
and those identified during our audit indicate that improvements are needed.
Specifically, FAA must ensure it is obtaining the documentation needed to
properly oversee this program.




Chapter 4. FAA Should Strengthen Its Oversight of Surveillance
Conducted by Foreign Civil Aviation Authorities                                                   30
Chapter 5. Recommendations


The use of domestic and foreign repair stations is becoming an integral part of air
carriers’ maintenance programs. FAA must ensure it find ways to provide greater
oversight of those entities performing maintenance work for air carriers, both
domestically and overseas. We recommend that FAA:

   1. Collect and monitor air carrier maintenance financial data to identify trends
      in the source of maintenance and make shifts in inspector resources as
      warranted.

   2. Develop a process to:

          a. Identify repair stations that air carriers use to perform aircraft
             maintenance;

          b. Identify the repair stations that are performing safety critical repairs;
             and

          c. Target inspector resources based on risk assessments, or analysis of
             data collected on air carrier outsourcing practices.

   3. Implement procedures to improve information sharing through FAA’s
      newly integrated Safety Performance Analysis System by:

          a. Requiring certificate management inspectors to document the name
             of the repair stations they have reviewed in the Air Transportation
             Oversight System database; and

          b. Requiring district office inspectors to include the areas inspected, the
             results, and corrective actions taken in the Program Tracking and
             Reporting System.

   4. Develop a comprehensive, standardized approach to repair station
      surveillance by requiring inspectors to review all aspects of repair station
      operations, from the time the repair is received until it is released to the
      customer.

   5. Modify existing inspection documentation requirements with foreign
      aviation authorities so that FAA receives sufficient documentation to
      ensure FAA-certified repair stations meet FAA standards.



Chapter 5. Recommendations                                                         31
   6. Develop a process to capture results from (a) foreign aviation authority
      inspections and (b) FAA sample inspections of foreign repair stations in
      FAA’s Program Tracking and Reporting System.

   7. Develop procedures to verify that foreign aviation authorities place
      adequate emphasis on FAA regulations when conducting reviews at FAA-
      certified facilities.

   8. Clarify requirements with foreign aviation authorities to ensure that
      changes to FAA-certified foreign repair stations’ operations that directly
      impact FAA requirements are sent to FAA for approval.

   9. Modify procedures for conducting sample inspections to permit FAA
      inspectors to:

          a. Conduct the number of inspections necessary to gain assurance that
             foreign aviation authority inspections meet FAA standards during
             the initial implementation periods when foreign authorities conduct
             inspections on FAA’s behalf; and

          b. Base the number of inspections in subsequent years on analysis of
             data collected from prior sample inspections.


Agency Comments and Office of Inspector General Response
On June 19, 2003, FAA provided written comments to our May 30, 2003 draft
report. On July 2, 2003, we met with FAA senior management officials to further
discuss the report and FAA’s response.

In its comments, FAA stated that our sample size may have been too small to
obtain accurate information and draw positive conclusions. We would point out
that, in order to obtain a representative sample of repair stations to review, we
selected facilities that were geographically dispersed throughout the country and
the world and that varied substantially in the type of work they performed. For
example, we visited repair stations in six different states that covered all regions of
the United States and five countries in Europe, Asia and South America. The
repair stations we visited performed repairs on all parts of the aircraft including:
the airframe, engines, landing gear, flight control assemblies, and fuel pumps.

In addition, before initiating our audit work, we consulted with the Office of
Inspector General Statistician to determine the number of repair stations we should
visit to perform a review of a statistically representative sample of domestic and
foreign repair stations.        Our sample size exceeded the Statistician’s


Chapter 5. Recommendations                                                          32
recommendation to review 10 domestic and 10 foreign repair stations. Finally, it
is important to recognize that the results of our review identified systemic
problems at the repair stations we visited, which, as we stated in the report,
demonstrates that FAA needs to improve its oversight of the work performed at
these facilities.

In responding to the report, FAA concurred with all our recommendations.
Specifically, FAA agreed to:

   → form a workgroup to evaluate various measurements available to identify
     trends in the source of maintenance and select the proper metrics. The
     workgroup will complete its work within 6 months, and FAA will develop
     policies and procedures to use these measures to identify trends and make
     changes in inspector resources as warranted. In the meantime, FAA will
     identify where critical repair work is performed and consider any available
     financial data to determine if there is a trend toward outsourcing such work;

   → develop procedures to target inspections based on a risk assessment or
     analysis of data collected on air carriers’ outsourcing practices;

   → develop procedures to improve information sharing through the Safety
     Performance Analysis System by requiring certificate management
     inspectors to document the name of the repair station they have reviewed in
     the Air Transportation Oversight System database and revising the
     guidance for district office inspectors to more thoroughly document repair
     station inspections;

   → clarify policies and procedures that require a comprehensive, standardized
     approach to repair station surveillance, including a review of all aspects of
     the repair station’s operation. FAA stated it has been exploring the use of
     various different ideas and philosophies regarding repair station oversight,
     such as a “certificate management” type of concept for large, complex
     repair stations. Additionally, an FAA surveillance team concept may also
     be employed at large, complex repair facilities;

   → conduct follow-up reviews with the three foreign aviation authorities to
     ensure they are complying with recently issued policy regarding inspection
     documentation requirements, and instruct Field Office Managers with
     responsibility for these agreements to ensure that documentation is in
     English and addresses the elements of repair station inspections;

   → develop policies and procedures to capture results from foreign aviation
     authority inspections and FAA sample inspections of foreign repair stations
     in its Program Tracking and Reporting System;


Chapter 5. Recommendations                                                     33
   → develop policies and procedures to verify that foreign aviation authorities
     place adequate emphasis on FAA regulations when conducting inspections
     on FAA’s behalf;

   → clarify policies and procedures with foreign aviation authorities that require
     the authorities to obtain FAA approval on any changes to FAA-certified
     repair station operations that directly impact FAA requirements; and

   → clarify that the current sample size for conducting sample inspections
     (10 percent of the repair stations) is the minimum adequate number needed
     to gain assurance that the foreign aviation authority’s inspections meet
     FAA standards. The fact that FAA is clarifying its policy on the number of
     sample inspections it can perform at foreign repair stations is a step in the
     right direction, particularly given that FAA inspectors stated the 10 percent
     sample inspection limit was too restrictive.

When properly implemented, these actions will be responsive to our
recommendations and should significantly enhance FAA’s surveillance of
domestic and foreign repair stations. However, FAA will have to provide target
dates for completing these actions before we can consider these recommendations
resolved.




Chapter 5. Recommendations                                                      34
Exhibit A. Entities Visited

FAA

Headquarters:
   Flight Standards Service (AFS)                       Washington, D.C.

AFS District Offices:
   Atlanta Flight Standards District Office             Atlanta, GA

   Boston Flight Standards District Office              Bedford, MA

   Greensboro Flight Standards District Office          Greensboro, NC

   Houston Flight Standards District Office             Houston, TX

   Los Angeles Flight Standards District Office         El Segundo, CA

   Miami Flight Standards District Office               Miami, FL

   Oakland Flight Standards District Office             Oakland, CA

   San Antonio Flight Standards District Office         San Antonio, TX

   Seattle Flight Standards District Office             Renton, WA


AFS Certificate Management Offices:
   Continental Airlines Certificate Management Office   Houston, TX

   Delta Air Lines Certificate Management Office        Atlanta, GA

   United Airlines Certificate Management Office        San Francisco, CA


AFS International Field Offices:
   Dallas/Ft. Worth International Field Office          Dallas, TX

   Frankfurt International Field Office                 Frankfurt, Germany

   Miami International Field Office                     Miami, FL


Exhibit A. Entities Visited                                                 35
   San Francisco International Field Office     San Francisco, CA

   Singapore International Field Office         Singapore


Air Carriers
   Continental Airlines                         Houston, TX

   Delta Air Lines                              Atlanta, GA

   United Airlines                              San Francisco, CA


Domestic Aircraft Repair Stations
   Avborne Heavy Maintenance                    Miami, FL

   AAR Landing Gear Services                    Miami, FL

   Air Operations International                 Miami, FL

   Alameda Aerospace                            Alameda, CA

   Skytronics Incorporated                      El Segundo, CA

   Argo-Tech                                    Inglewood, CA

   Aviation Technologies                        San Antonio, TX

   San Antonio Aerospace                        San Antonio, TX

   Goodrich Aviation Technical Services         Everett, WA

   TIMCO                                        Greensboro, NC

   Senior Operations                            Sharon, MA

   Parker Hannifan                              Ayer, MA

Foreign Aircraft Repair Stations
   ST Aviation Services (SASCO)                 Singapore

   Rohr Aero Services-Asia Pte Ltd.             Singapore

   Hong Kong Aircraft Engineering Co. (HAECO)   Hong Kong



Exhibit A. Entities Visited                                         36
   Hong Kong Aero Engine Services (HAESL)   Hong Kong

   Mexicana                                 Mexico City, Mexico

   AeroMexico                               Mexico City, Mexico

   GE-Celma                                 Petropolis, Brazil

   GE-VARIG                                 Rio de Janeiro, Brazil

   VARIG Engineering and Maintenance        Rio de Janeiro, Brazil

   Snecma Services                          Chatellerault Cedex,
                                              France

   Air France                               Roissy Charles
                                              DeGualle Cedex,
                                              France




Exhibit A. Entities Visited                                      37
Exhibit B. Major Contributors to This Report

   THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT:



   Name                                        Title

   Lou E. Dixon                                Program Director

   Tina B. Nysted                              Project Manager

   Thomas D. Jefferson                         Senior Auditor

   Mike J. Leibrecht                           Senior Analyst

   Mark A. Gonzales                            Analyst

   Curtis Gelber                               Analyst

   Brian J. Huckaby                            Auditor

   Katherine A. Yutzey                         Analyst




Exhibit B. Major Contributors to This Report                      38
           Appendix. Management Comments


                                                    Memorandum
Subject:   INFORMATION: Review of Air Carriers' Use          Date:            June 19, 2003
           of Aircraft Repair Stations
From:      Acting Assistant Administrator for Financial      Reply to
                                                             Attn. of:
              Services and Chief Financial Officer

To:        Assistant Inspector General for Aviation Audits

                 Thank you for the opportunity to provide comments on your draft report.
                 We value this independent assessment of air carriers’ use of repair stations
                 and appreciate your recognition of the many overlapping controls that are in
                 place to ensure proper completion of all repairs.


                 While we agree with the intent of each recommendation, we disagree with
                 some statements and inferences in the draft report. We are providing
                 general comments and a response to each recommendation in the
                 attachment. Because of the short deadline, we were unable to provide
                 timelines for the proposed actions.


                 Should you have questions or need further information, please contact
                 Anthony Williams, Budget Policy Division, ABU-100. He can be reached at
                 (202) 267-9000.




           John F. Hennigan


           Attachment




           Appendix. Management Comments                                                   39
     Federal Aviation Administration’s (FAA)
                   Response to
                 Draft Office of Inspector General’s (OIG) Report on
                Review of Air Carriers’ Use of Aircraft Repair Stations


General Comments:

The use of domestic and foreign repair stations is vital to the strength of our
airline industry. Airlines use repair stations for various reasons including the
technical expertise or specialization that resides in many repair stations, as well
as location and cost. FAA and foreign aviation authorities work closely in
monitoring repair stations in those countries in which the FAA and the foreign
regulatory authority have a Bilateral Aviation Safety Agreement (BASA) and
Maintenance Implementation Procedures (MIP). Currently the FAA monitors
nearly 1,159 Federal Aviation Regulation (FAR) Part 145 repair stations
throughout the United States for the foreign aviation authorities. These Part 145
repair stations are Joint Aviation Authorities Approved Maintenance
Organizations. Foreign regulatory authorities monitor nearly 138 FAR Part 145
foreign repair stations for the FAA.

The sample size of repair stations used to perform this audit may have been too
small to get accurate information and draw positive conclusions. Considering
there are about 650 foreign and 4,600 domestic Part 145 certified repair stations,
evaluating 9 foreign and 12 domestic Part 145 certified repair stations might not
have provided enough data for a thorough analysis. (The exact number of repair
stations fluctuates daily).


Response to Recommendations:

OIG Recommendation 1: Collect and monitor air carrier maintenance
financial data to identify trends in the source of maintenance and make
shifts in inspector resources as warranted.

FAA Response: Concur. We agree, in principle, that a measure may be
needed to identify trends in the source of maintenance and make changes
in inspector resources as warranted; however, we do not agree that
financial data is the only suitable measurement. Financial data may not
provide the most reliable measurement of the work, or the criticality of the
work, that is outsourced. We will form a work group to evaluate the
various measurements available and select the proper metrics. The group
will complete its work within 6 months, and we will develop policies and


Appendix. Management Comments                                                    40
procedures to use these measures to identify trends in the source of
maintenance and to make changes in inspector resources as warranted.
In the meantime, we will identify where certain critical repair work, such as
heavy maintenance checks, is performed and consider any available
financial data to determine if there is a trend toward outsourcing such
work.

OIG Recommendation 2: Develop a process to: (a) identify repair
stations that air carriers use to perform aircraft maintenance, (b) identify
the repair stations that are performing safety critical repairs and, (c) target
inspector resources based on risk assessment or analysis of data collected
on air carrier outsourcing practices.

FAA Response: Concur. The current process to identify repair stations
that air carriers use to perform safety critical repairs can be improved. We
will develop a new process to target inspector resources based on risk
assessment or analysis of data collected on air carriers outsourcing
practices.

OIG Recommendation 3: Implement procedures to improve information
sharing through FAA’s newly integrated Safety Performance Analysis
System by requiring: (a) certificate management office inspectors to
document the name of the repair stations they have reviewed in the Air
Transportation Oversight System database and; (b) district office
inspectors to include the areas inspected, the results, and corrective
actions taken in the Program Tracking and Reporting System.

FAA Response: Concur. We will develop procedures to improve
information sharing through the Safety Performance Analysis System by
requiring Certificate Management Office inspectors to document the name
of the repair station they have reviewed in the Air Transportation Oversight
System database and revise the guidance to Flight Standards Field Office
inspectors to more thoroughly document repair station inspections.

OIG Recommendation 4:             Develop a comprehensive, standardized
approach to repair station surveillance by requiring inspectors to review all
aspects of repair station operations, from the time the repair is received
until it is released to the customer.

FAA Response: Concur. The intent of current policy is to review all
aspects of the repair station operation during a repair station facility
inspection. However, we will clarify policies and procedures that will
require a comprehensive and standardized approach to repair station
surveillance, including the review of the total repair station operations. The


Appendix. Management Comments                                               41
FAA has been exploring the use of different ideas and philosophies on
repair station oversight, such as a “certificate management” for large and
complex repair stations. Also, FAA will consider employing a surveillance
team concept at the large and more complex repair stations.

OIG Recommendation 5: Modify existing inspection documentation
requirements with foreign aviation authorities so that FAA receives
sufficient documentation to ensure FAA certified repair stations meet FAA
standards.

FAA Response Concur. In September and October 2002, we issued new
policy instructions to our inspectors and to the foreign aviation authorities
regarding the documentation to be submitted to ensure that repair stations
meet FAA standards.          These instructions were developed by the
inspectors responsible for oversight of these repair stations and addressed
inspector concerns. Although the OIG team knew this new guidance was
being drafted, they did not have the benefit of it during their audit. We will
do follow-up reviews with the three national aviation authorities to ensure
they are complying with the new policy. In addition, Field Office Managers
with responsibility for these agreements will ensure that documentation will
be in English and will address the elements of the repair station inspection.

OIG Recommendation 6: Develop a process to capture results from a)
foreign aviation authority inspections and b) FAA sample inspections of
foreign repair stations in FAA’s PTRS.



FAA Response: Concur. We will develop policies and procedures to
capture results from foreign aviation authority inspections and FAA sample
inspections of foreign repair stations in the PTRS.

OIG Recommendation 7: Develop procedures to verify that foreign
aviation authorities place adequate emphasis on FAA regulations when
conducting reviews at FAA certified facilities.

FAA Response: Concur. We will develop policies and procedures to
verify that foreign aviation authorities place enough emphasis on the FAR
when conducting reviews at FAA certified foreign repair stations in
countries, where a BASA/MIP has been implemented.

OIG Recommendation 8: Clarify requirements with foreign aviation
authorities to ensure that changes to FAA certified foreign repair stations’




Appendix. Management Comments                                              42
operations that directly impact FAA requirements are sent to FAA for
approval.

FAA Response: Concur. We will clarify policies and procedures that
require foreign aviation authorities to send changes to FAA certified foreign
repair station operations that directly impact FAA requirements for FAA
approval.

OIG Recommendation 9: Modify procedures for conducting sample
inspections to permit FAA inspectors to: (a) conduct the number of
inspections necessary to gain assurance that foreign aviation authority
inspections meet FAA standards during the initial implementation periods
when foreign authorities conduct inspections on FAA’s behalf; and (b) base
the number of inspections in subsequent years on analysis of data
collected from prior sample inspections.

FAA Response: Concur. We will clarify that the current sample size is
the minimum adequate sample to make a positive determination of the
acceptability of a foreign aviation authority’s competence to perform repair
station surveillance for the FAA.




Appendix. Management Comments                                             43
Section 508 Compliant Materials for the OIG’s Review
   of Air Carriers’ Use of Aircraft Repair Stations

Executive Summary

Figure 1. Oversight of FAA-Certified Repair Stations
          Entity                      Number of Inspectors
  FAA Flight Standards District             3,041
       Office Inspectors
  FAA Certificate Management                     153
       Office Inspectors
  FAA International Field Office                 105
           Inspectors
      Air Carrier Auditors               Information Not
                                            Available
    Civil Aviation Authorities           Information Not
           Inspectors                       Available

Figure 2. Percentage of Maintenance Outsourcing for Major Air
Carriers from 1996 to 2002

             ($ in billions)
Year Outsourcing      Total        Percentage
        Cost          Cost              of
                                   Outsourced
                                   Maintenance
1996      $1.5         $4.2         37 percent
1997      $1.8         $4.8         38 percent
1998      $2.2         $5.3         41 percent
1999      $ 2.5        $5.5         45 percent
2000      $2.7         $6.1         44 percent
2001      $2.8         $5.9         47 percent
2002      $2.5         $5.4         47 percent
Source: U.S. DOT Form 41 Data
Figure 3. Growth in Outsourced Maintenance in 1996 and 2002
for Three Major Air Carriers
                             ($ in millions)
Air Carrier Year      In-House    Outsourced Total Cost    Percentage
            (CY)                                                of
                                                           Outsourced
                                                           Maintenance
  Delta        1996    $399.1         $93.2       $492.3    19 percent
  Delta        2002     $514         $309.5       $823.5    38 percent
 United        1996    $614.5        $144.8       $759.3    19 percent
 United        2002    $615.2        $304.2       $919.4    33 percent
Northwest      1996     $453         $205.6       $658.6    31 percent
Northwest      2002    $371.1        $286.2       $657.3    44 percent
Source: U.S. DOT Form 41 Data

Figure 4. Major Airlines’ Percentage of Maintenance
Outsourcing for 2002

                                ($ in millions)
Air Carrier      Outsourced       Total Expense    Percent of Outsourced
                 Maintenance                           Maintenance
   Alaska           $129             $163.7              79 percent
America West       $229.2            $298.1              77 percent
  American         $465.2           $1,212.4             38 percent
 Continental       $249.8            $384.2              65 percent
   Delta           $309.5            $823.5              38 percent
 Northwest         $286.2            $657.3              44 percent
 Southwest         $313.7            $481.8              65 percent
   United          $304.2            $919.4              33 percent
 US Airways        $215.1            $427.3              50 percent
Source: U.S. DOT Form 41 Data
Figure 5. Percentage of Repair Station Inspections Completed by
FAA Certificate Management Inspectors in FY 2002

Air Carrier   Number of In-          Repair Station          Percentage of
                 House           Inspections Completed     Inspections Done
              Maintenance                                       at Repair
               Inspections                                  Stations to Total
               Completed                                      Inspections
                                                               Completed
Carrier A         199                      7                    3 percent
Carrier B         117                      8                    6 percent
Carrier C         266                     18                    6 percent
Carrier D          82                      1                    1 percent
Carrier E          87                      4                    4 percent
Carrier F         256                      8                    3 percent
 Carrier G         270                    6                    2 percent
 Carrier H         286                    6                    2 percent
 Carrier I         400                    7                    2 percent
Source: FAA ATOS Database

Chapter 1

Figure 1. Oversight of FAA-Certified Repair Stations
          Entity                     Number of Inspectors
  FAA Flight Standards District            3,041
       Office Inspectors
  FAA Certificate Management                   153
       Office Inspectors
  FAA International Field Office               105
           Inspectors
      Air Carrier Auditors               Information Not
                                            Available
    Civil Aviation Authorities           Information Not
           Inspectors                       Available
Chapter 2

Figure 2. Percentage of Maintenance Outsourcing for Major Air
Carriers from 1996 to 2002

             ($ in billions)
Year Outsourcing      Total     Percentage
        Cost          Cost           of
                                Outsourced
                                Maintenance
1996      $1.5        $4.2       37 percent
1997      $1.8        $4.8       38 percent
1998      $2.2        $5.3       41 percent
1999      $ 2.5       $5.5       45 percent
2000      $2.7        $6.1       44 percent
2001      $2.8        $5.9       47 percent
2002      $2.5        $5.4       47 percent
Source: U.S. DOT Form 41 Data

Figure 3. Growth in Outsourced Maintenance in 1996 and 2002
for Three Major Air Carriers
                             ($ in millions)
Air Carrier Year      In-House    Outsourced Total Cost   Percentage
            (CY)                                               of
                                                          Outsourced
                                                          Maintenance
  Delta      1996      $399.1        $93.2     $492.3      19 percent
  Delta      2002       $514        $309.5     $823.5      38 percent
 United      1996      $614.5       $144.8     $759.3      19 percent
 United      2002      $615.2       $304.2     $919.4      33 percent
Northwest    1996       $453        $205.6     $658.6      31 percent
Northwest    2002      $371.1       $286.2     $657.3      44 percent
Source: U.S. DOT Form 41 Data
Figure 4. Major Airlines’ Percentage of Maintenance
Outsourcing for 2002

                             ($ in millions)
Air Carrier    Outsourced      Total Expense     Percent of Outsourced
               Maintenance                           Maintenance
   Alaska         $129              $163.7             79 percent
America West     $229.2             $298.1             77 percent
  American       $465.2            $1,212.4            38 percent
 Continental     $249.8             $384.2             65 percent
   Delta         $309.5             $823.5             38 percent
 Northwest       $286.2             $657.3             44 percent
 South West      $313.7             $481.8             65 percent
   United        $304.2             $919.4             33 percent
 US Airways      $215.1             $427.3             50 percent
Source: U.S. DOT Form 41 Data

Figure 5. Increase in Outsourcing to Foreign Repair Stations by
One Major Air Carrier From Calendar Year 1996 to 2001

                             ($ in millions)
Year    Foreign Repair            Total           Percentage of
       Station Outsource     Maintenance           Outsourced
         Maintenance            Expense        Maintenance Expense
            Expense
1996         $26.6              $280.1              9 percent
1997         $64.2              $389.8             16 percent
1998         $47.8              $342.9             14 percent
1999         $54.2              $259.7             21 percent
2000         $68.4              $298.7             23 percent
2001         $91.7              $347.2             26 percent
Source: U.S. DOT Form 41 Data
Figure 6. Percentage of Outsourced Maintenance Expense for
Atlantic Southeast Airlines from 1996 to 2002

                                ($ in millions)
Year           Outsource               Total         Percentage of
              Maintenance          Maintenance        Outsourced
               Expense               Expense      Maintenance Expense
1996             $21                  $53.3            39 percent
1997            $26.6                 $59.5            45 percent
1998            $32.1                  $59             54 percent
1999            $51.2                 $75.1            68 percent
2000            $48.3                 $96.2            50 percent
2001            $61.2                 $87.3            70 percent
2002            $49.8                  $76             66 percent


Chapter 3

Figure 7. Percentage of Repair Station Inspections Completed by
FAA Certificate Management Inspectors in FY 2002

Air Carrier     Number of In-         Repair Station        Percentage of
                    house         Inspections Completed   Inspections done
                Maintenance                                   at Repair
                 Inspections                              Stations to Total
                 Completed                                   Inspections
                                                             Completed
Carrier A            199                     7                3 percent
Carrier B            117                     8                6 percent
Carrier C            266                    18                6 percent
Carrier D             82                     1                1 percent
Carrier E             87                     4                4 percent
Carrier F            256                     8                3 percent
Carrier G            270                     6                2 percent
Carrier H            286                     6                2 percent
Carrier I            400                     7                2 percent
Source: FAA ATOS Database
